<html>
<title> - OPEN HEARING ON WORLDWIDE THREATS</title>
<body><pre>[Senate Hearing 115-278]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-278
 
                   OPEN HEARING ON WORLDWIDE THREATS

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                       TUESDAY, FEBRUARY 13, 2018

                               __________

      Printed for the use of the Select Committee on Intelligence
      
      
      


        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
        
                            _________ 

                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 28-947 PDF               WASHINGTON : 2018              
 
 
 
 
        
        
                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 RICHARD BURR, North Carolina, Chairman
                MARK R. WARNER, Virginia, Vice Chairman

JAMES E. RISCH, Idaho                DIANNE FEINSTEIN, California
MARCO RUBIO, Florida                 RON WYDEN, Oregon
SUSAN COLLINS, Maine                 MARTIN HEINRICH, New Mexico
ROY BLUNT, Missouri                  ANGUS KING, Maine
JAMES LANKFORD, Oklahoma             JOE MANCHIN, West Virginia
TOM COTTON, Arkansas                 KAMALA HARRIS, California
JOHN CORNYN, Texas
                 MITCH McCONNELL, Kentucky, Ex Officio
                  CHUCK SCHUMER, New York, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                  JACK REED, Rhode Island, Ex Officio
                              ----------                              
                      Chris Joyner, Staff Director
                 Michael Casey, Minority Staff Director
                   Kelsey Stroud Bailey, Chief Clerk
                   
                                CONTENTS

                              ----------                              

                           FEBRUARY 13, 2018

                           OPENING STATEMENTS

Burr, Hon. Richard, Chairman, a U.S. Senator from North Carolina.     1
Mark R. Warner, Vice Chairman, a U.S. Senator from Virginia......     3

                                WITNESS

Daniel R. Coats, Director of National Intelligence; Accompanied 
  by: Michael Pompeo, Director of the Central Intelligence 
  Agency; Admiral Michael Rogers, Director of the National 
  Security Agency; Lieutenant General Robert Ashley, Director of 
  the Defense Intelligence Agency; Chris Wray, Director of the 
  Federal Bureau of Investigation; and Robert Cardillo, Director 
  of the National Geospatial-Intelligence Agency.................     5
    Prepared statement...........................................    12

                         SUPPLEMENTAL MATERIAL

Responses of Daniel R. Coats to Questions for the Record.........    78


                   OPEN HEARING ON WORLDWIDE THREATS

                              ----------                              


                       TUESDAY, FEBRUARY 13, 2018

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:35 a.m. in Room 
SH-216, Hart Senate Office Building, Hon. Richard Burr 
(Chairman of the Committee) presiding.
    Present: Burr (presiding), Warner, Risch, Rubio, Collins, 
Blunt, Lankford, Cotton, Cornyn, Feinstein, Wyden, Heinrich, 
King, Manchin, Harris, and Reed.

   OPENING STATEMENT OF HON. RICHARD BURR, CHAIRMAN, A U.S. 
                  SENATOR FROM NORTH CAROLINA

    Chairman Burr. I'd like to call this hearing on worldwide 
threats to order, and I'd like to welcome our distinguished 
witnesses today:
    Director of National Intelligence Dan Coats;
    Director of the Central Intelligence Agency Mike Pompeo;
    Director of the Defense Intelligence Agency General Robert 
Ashley;
    Director of the Federal Bureau of Investment Chris Wray;
    Director of the National Security Agency, Admiral Mike 
Rogers;
    And Director of the Geospatial Intelligence Agency Robert 
Cardillo.
    We've got a long day in front of us and I thank all of you 
for being here. I know how forward you look to this one 
occasion on an annual basis. Since 1995, this Committee has met 
in open forum to discuss the security threats facing the United 
States of America. This has never been, nor will it ever be, a 
comfortable conversation to have.
    The threats this country face are complex, evolving, and 
without easy answers. They exist in multiple domains. They're 
asymmetrical and they're conventional. They can be launched 
from across the ocean or be planned in the heart of our 
homeland. Nonetheless, this conversation serves a vital purpose 
and it's essential that it takes place in the public square, 
with as much detail and candor as is possible.
    In my view, that is the true value and public service of 
this hearing. It provides the American people with insight that 
they just don't normally get. Those insights are about the 
spectrum of threats we're up against as a Nation. But, 
importantly, those insights are also about the work that the 
intelligence community does to push back on those threats. This 
is work that is both time- and labor-intensive. It can be 
frustrating, heartbreaking, and dangerous. It's often 
thankless, but because of the tireless dedication and 
patriotism of men and women who make up our intelligence 
community, it gets done on behalf of the American people every 
single day.
    To this point, I encourage all the witnesses this morning 
to not only address the threats to our Nation, but to talk 
about what their organizations are doing to help secure this 
country and, to the degree they can in an unclassified setting.
    Director Coats, your testimony for the record ties together 
the expertise, capabilities, and wisdom of the entire 
intelligence community. I encourage everyone to familiarize 
themselves with its contents. It's lengthy and it's detailed, 
and it's a testament to the broad range of talents our IC 
brings to the table. It's also a compelling reminder of why 
this country invests so substantially in its intelligence 
apparatus.
    Director Pompeo, when we held this hearing last year I 
invited you to share your assessments of things on the Korean 
Peninsula. I'm going to ask you again for your insights on the 
state of North Korea's nuclear and missile program and, 
importantly, what's going on politically with North Korea's 
leadership. Perhaps you can help us differentiate between a 
genuine effort to reconcile with South Korea and an 
opportunistic attempt to drive a wedge between Washington and 
Seoul.
    General Ashley, the work just never seems to end for our 
Defense Department. I would value your latest assessment of the 
battlefield situations in Syria and Afghanistan. Last week we 
had U.S. advisors and Kurdish allies come under fire in eastern 
Syria. This prompted a retaliatory strike that killed dozens of 
pro-regime forces.
    In Afghanistan, a string of terrorist attacks in Kabul left 
150 dead last month, suggesting to me that, after 16 years of 
war, the insurgency is nowhere near folding and the government 
remains hard-pressed to provide the security needed for its own 
people. I'd particularly value your unvarnished appraisal of 
where progress is being made in Afghanistan and where it's not.
    Admiral Rogers, cyber is clearly the most challenging 
threat vector this country faces. It's also one of the most 
concerning, given how many aspects of our daily lives in the 
United States can be disrupted by a well-planned, well-executed 
cyber-attack. I'd appreciate your assessment of how well we're 
doing when it comes to protecting the Nation's most critical 
computer networks. From the systems that guide our military to 
the networks that ensure the Nation's energy supply, they are 
all essential to the functionality of a modern America, and I 
fear that they're increasingly vulnerable to state and non-
state actors.
    Director Wray, I'm keenly interested in hearing your 
assessment of the threat posed by the spread of foreign 
technology in the United States. This Committee has worked 
diligently to sound the alarm bells when it comes to the 
counterintelligence and information security risks that come 
prepackaged with the goods and services of certain overseas 
vendors.
    The focus of my concern today is China, and specifically 
Chinese telecom, like Huawei and ZTE, that are widely 
understood to have extraordinary ties to the Chinese 
government. I hope you'll share your thoughts on this, and I 
also ask you to provide your insights into how foreign 
commercial investments and acquisitions are jeopardizing the 
Nation's most sensitive technologies.
    Lastly, I'd like to spend a moment on the 
counterintelligence threat to our national academic, research, 
and laboratory construct. What's the scale of the problem and 
what's the FBI doing to fight it?
    Finally, Director Cardillo, we've come to associate NGA 
with the modernization of the intelligence community. The 
adversaries of this country are investing in innovating faster 
and with fewer constraints than we have. The threats we face 
are multidimensional, decentralized, and global. NGA has played 
an essential role in pushing the envelope with new ways of 
tackling problems, like having more data than you can feasibly 
analyze.
    As the IC edges closer to automation, machine learning, and 
eventually artificial intelligence, the computer learning and 
computer vision work at NGA will be a bridge to help us get 
there. I look forward to your thoughts on what's next at NGA 
and how the intelligence community as a whole can make better 
use of innovation and technology to advance intelligence 
disciplines that have not changed much in the past 60 years. 
Our adversaries aren't going to wait for us to catch up.
    I'll close there because we have a lot to get to, but I 
want to thank you and, more importantly, I want to thank those 
who are not here with you, those who carry out the lion's share 
of the work on behalf of the American people, the intelligence 
community. The folks you represent are important to this 
Committee. We can't do our oversight without the work they 
perform.
    Before turning to the distinguished Vice Chairman, I'd like 
to highlight for my colleagues: We will reconvene at 2:30 this 
afternoon in a closed session to hear from the same witnesses 
in a classified setting. I would ask Members to please reserve 
anything that remotely gets into a classified question for the 
afternoon session.
    With that, Vice Chairman.

OPENING STATEMENT OF HON. MARK R. WARNER, VICE CHAIRMAN, A U.S. 
                     SENATOR FROM VIRGINIA

    Vice Chairman Warner. Thank you, Mr. Chairman, and let me 
also welcome all of you here and echo the Chairman's comments. 
Thank you all for your service and we hope you will convey back 
to all the brave men and women who work for you, that this 
Committee will always have your back.
    I think this open hearing comes at an extraordinarily 
important time. Our Nation's intelligence agencies stand at the 
forefront of our defense against continuing threats from 
terrorist groups, extremist ideology, rogue regimes, nuclear 
proliferation, and regional instability.
    We all know--and we discussed this at length--in recent 
years we've also seen the rise of nations who view themselves 
at least as competitors, if not as adversaries, of the United 
States. They've begun to use, utilize, new asymmetric weapons 
to undercut our democratic institutions, to steal our most 
sensitive intellectual property.
    Let me start with Russia. Obviously, certain questions 
remain with respect to the true extent of the Russian 
interference in the 2016 elections, and we'll continue to work 
through them in a bipartisan way on this Committee. However, I 
think you'll find a broad bipartisan consensus on this 
Committee on a number of critical issues:
    First, that Russia engaged in a coordinated attack to 
undermine our democracy;
    Second, that effort included targeting of State and local 
elections, electoral activities, in 21 states;
    And third, the Russian effort, in a new area, utilized our 
social media platforms to push and spread misinformation at an 
unprecedented scale.
    Now, we've had more than a year to get our act together and 
address the threat posed by Russia and implement a strategy to 
deter further attacks. But I believe, unfortunately, we still 
don't have a comprehensive plan.
    Two weeks ago, Director Pompeo publicly stated that he had 
every expectation that Russia will try to influence our 
upcoming elections. Secretary of State Tillerson just last week 
said that we're already seeing Russian efforts to meddle in the 
2018 elections. But I believe, in many ways, we're no better 
prepared than we were in 2016. Make no mistake, this threat did 
not begin in 2016, and it certainly didn't end with the 
election. What we are seeing is a continuous assault by Russia 
to target and undermine our democratic institutions, and 
they're going to keep coming at us.
    Despite all this, the President, inconveniently, continues 
to deny the threat posed by Russia. He didn't increase 
sanctions on Russia when he had a chance to do so. He hasn't 
even tweeted a single concern.
    This threat I believe demands a whole-of-government 
response, and that response needs to start with leadership at 
the top.
    At the same time, other threats to our institutions come 
from right here at home. There have been some, aided and 
abetted by Russian internet bots and trolls, who've attacked 
the basic integrity of the FBI and the Justice Department. This 
is a dangerous trend. This campaign of innuendo and 
misinformation should alarm all of us, regardless of our 
partisan affiliation.
    In addition to this ongoing threat from Russia, I'm 
concerned that China has developed an all-of-society, not just 
all-of-government, but all-of-society, approach to gain access 
to our sensitive technologies and intellectual property. I'm 
paying a great deal of attention to the rise of China's tech 
sector. In particular, I'm worried about the close relationship 
between the Chinese government and Chinese technology firms, 
particularly in the area of commercialization of our 
surveillance technology and efforts to shape telecommunication 
equipment markets.
    I want to ensure that the IC is tracking the direction that 
China's tech giants are heading, and especially the extent to 
which they are beholden to the Chinese government. In recent 
years we've seen major technology firms whose rise is 
attributed in part to their illicit access to U.S. technology 
and IP. These companies now represent some of the leading 
market players globally. Most Americans have not heard of all 
of these companies, but as they enter Western economic markets 
we want to ensure that they play by the rules. We need to make 
sure that this is not a new way for China to gain access to 
sensitive technology.
    There are a number of other concerns I hope to raise both 
in the hearing this morning and in the closed hearing this 
afternoon. Let me just briefly mention two. First, how is the 
IC poised to track foreign influence that relies on social 
media and misinformation? Just last week, the Chairman and I 
had a good management with our UK parliamentary colleagues 
investigating this issue. Russian trolls and bots continue to 
push divisive content both in the United States and against all 
our allies in Europe, not only the UK, but, as we talked 
before, France, Germany, Netherlands. We also heard recent 
indications of Russian activities in Mexico. The IC needs to 
stay on top of this issue and I am worried that we don't have a 
clear line of assignment.
    Let me also raise another issue. I believe we need to do 
more to reform the broken security clearance system, which GAO 
recently placed on its list of high-risk government programs in 
need of reform. We've seen close to 700,000 folks now waiting 
in line, folks that need to serve our country, whether in 
government or in the private sector, who have been just waiting 
way too long to get their security clearances. It's obviously 
hampering your recruitment and retention, and it's costing us 
millions of dollars in inefficiency.
    Again, thank you to all of you for your service. Please 
convey our best wishes to the men and women who work with you, 
and I look forward to our hearing.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    I'm going to recognize Director Coats and he is the only 
one who will give official testimony. All members of the panel 
are open for questions. I will recognize our Members by order 
of seniority for up to five minutes.
    With that, Director Coats, the floor is yours.

      STATEMENT OF DANIEL R. COATS, DIRECTOR OF NATIONAL 
 INTELLIGENCE; ACCOMPANIED BY: MICHAEL POMPEO, DIRECTOR OF THE 
 CENTRAL INTELLIGENCE AGENCY; ADMIRAL MICHAEL ROGERS, DIRECTOR 
  OF THE NATIONAL SECURITY AGENCY; LIEUTENANT GENERAL ROBERT 
  ASHLEY, DIRECTOR OF THE DEFENSE INTELLIGENCE AGENCY; CHRIS 
  WRAY, DIRECTOR OF THE FEDERAL BUREAU OF INVESTIGATION; AND 
     ROBERT CARDILLO, DIRECTOR OF THE NATIONAL GEOSPATIAL-
                      INTELLIGENCE AGENCY

    Director Coats. Mr. Chairman, thank you. I want to start by 
apologizing for my raspy voice. I've been fighting through some 
of the crud that's going around, that several of us have 
endured. I may have to clear my throat a few times, which I 
apologize for.
    But it strikes me, listening to your opening remarks and 
the Vice Chairman's opening remarks that we have continued to 
have a very interactive presence with this Committee. The 
issues that you and the Vice Chairman have raised and that 
others will raise are issues that we talk about continuously 
with you, and we want to continue to work with you carefully by 
both sides of the aisle here, as we go forward looking at what 
the intelligence community can provide for this Committee and 
the issues that we find in common.
    Vice Chairman Warner, Members of the Committee: We thank 
you for the opportunity to be with you here today. There have 
been some changes on the panel since we were here last year. 
This will be Admiral Rogers' last visit before this Committee 
on the threat assessment issue. He deeply regrets not having to 
come before you in the future years, as he's enjoyed this 
process so very much.
    Chairman Burr. We're considering an emeritus status so that 
he can be annually invited back.
    [Laughter.]
    Director Coats. We have two new members, Director Wray and 
General Ashley, who have been looking forward to this day, I'm 
sure, with great anticipation.
    I say all that because what you are looking at here is a 
team, a team that works together in terms of how we provide the 
American people, Congress, and policymakers with the 
intelligence that they need. So it's an honor for us to be 
here, and I think this team reflects the hard work of the 
intelligence community in their testimonies and their answers 
to questions today.
    Before I begin the sobering portion of my remarks, let me 
take a moment to acknowledge a positive development for the 
intelligence community and express our thanks to Members of 
this Committee for their support in the renewing of the 
authorities in the recent 702 authorization. This is, as we 
have told you, our most important legislative issue because it 
is our most important collection issue against foreign 
terrorists and threats to America, and we appreciate the work 
that the Committee has done and others have done, and 
particularly this team has done, in reaching that goal.
    As you will hear during these remarks, we face a complex, 
volatile, and challenging threat environment. The risk of 
inter-state conflict is higher than at any time since the end 
of the Cold War, all the more alarming because of the growing 
development and use of weapons of mass destruction by state and 
non-state actors.
    Our adversaries as well as other malign actors are using 
cyber and other instruments of power to shape societies and 
markets, international rules and institutions, and 
international hot spots to their advantage. We have entered a 
period that can best be described as a race for technological 
superiority against our adversaries, who seek to sow division 
in the United States and weaken U.S. leadership, and non-state 
actors, including terrorists and criminal groups, are 
exploiting weak state capacity in Africa, the Middle East, 
Asia, and Latin America, causing instability and violence both 
within states and among states.
    In the interest of saving time for your questions, I will 
not cover every topic in my opening remarks. I think that will 
be a relief to the Committee. We are submitting a written 
statement, however, for the record with additional details.
    Let me turn to global threats, and I'd like to start with 
the cyber threat, which is one of my greatest concerns and top 
priorities. Frankly, the United States is under attack, under 
attack by entities that are using cyber to penetrate virtually 
every major action that takes place in the United States. From 
U.S. businesses to the Federal Government to State and local 
governments, the United States is threatened by cyber-attacks 
every day.
    While Russia, China, Iran, and North Korea pose the 
greatest cyber threats, other nation-states, terrorist 
organizations, transnational criminal organizations, and ever 
more technically capable groups and individuals use cyber 
operations to achieve strategic and malign objectives. Some of 
these actors, including Russia, are likely to pursue even more 
aggressive cyber-attacks with the intent of degrading our 
democratic values and weakening our alliances. Persistent and 
disruptive cyber operations will continue against the United 
States and our European allies, using elections as 
opportunities to undermine democracy, sow discord, and 
undermine our values.
    Chinese cyber espionage and cyber-attack capabilities will 
continue to support China's national security and economic 
priorities. Iran will try to penetrate U.S. and allied networks 
for espionage and lay the groundwork for future cyber-attacks. 
And North Korea will continue to use cyber operations to raise 
funds, launch attacks, and gather intelligence against the 
United States. Terrorists will use the internet to raise funds 
and promote their malign messages. Criminals will exploit cyber 
tools to finance their operations.
    My next topic for you is weapons of mass destruction, WMD. 
Overall, state efforts to modernize, develop, or acquire WMD, 
their delivery systems, or the underlying technologies 
constitute a major threat to the United States and to our 
allies. North Korea will be the most volatile and 
confrontational WMD threat in the coming year. In addition to 
its ballistic missile tests and growing number of nuclear 
warheads for these missiles, North Korea will continue its 
longstanding chemical and biological warfare programs.
    Russia will remain the most capable WMD power and is 
expanding its nuclear weapon capabilities. China will continue 
to expand its weapons of mass destruction options and diversify 
its nuclear arsenal. Iran's implementation of the Joint 
Comprehensive Plan of Action, the JCPoA, has extended the time 
it would take to develop a nuclear weapon from several months 
to about a year, provided Iran continues to adhere to the 
deal's major provisions.
    Pakistan is developing new types of nuclear weapons, 
including short-range tactical weapons. And state and non-state 
actors, including the Syrian regime and ISIS, the remnants of 
ISIS in Syria, continue to possess and, in some cases, have 
used chemical weapons in Syria and Iraq, and we continue to be 
concerned about some of these actors' pursuit of biological 
weapons.
    Turning now to terrorism, the terrorism threat is 
pronounced and spans the sectarian spectrum from ISIS and Al-
Qaeda to Lebanese Hezbollah and other affiliated terrorist 
organizations, as well as the state-sponsored activities of 
Iran. U.S.-based home-grown violent extremists, including 
inspired and self-radicalized individuals, represent the 
primary and most different to detect Sunni terrorism threat in 
the United States.
    ISIS' claim to having a functioning caliphate that governs 
populations is all but thwarted. However, ISIS remains a threat 
and will likely focus on regrouping in request and Syria, 
particularly in ungoverned portions of those countries, 
enhancing its global presence, championing its cause, planning 
international attacks, and encouraging members and sympathizers 
to attack their home countries.
    Meanwhile, Al-Qaeda almost certainly will remain a major 
actor in global terrorism as it continues to prioritize a long-
term approach and the organization remains intent on attacking 
the United States and U.S. interests abroad.
    Now, moving on, as if we don't have enough threats here on 
Earth, we need to look to the heavens: threats in space. The 
global expansion of the space industry will extend space-
enabled capabilities and situational awareness to nation-state 
and commercial space actors in the coming years. Russia and 
China will continue to expand to space-based reconnaissance, 
communications, and navigation systems in terms of numbers of 
satellites, breadth of capability, and applications for use. 
Both Russian and Chinese counter-space weapon will mature over 
the next few years, as each country pursues anti-satellite 
weapons as a means to reduce U.S. and allied military 
effectiveness and perceptions of U.S. military advantage in 
space.
    The final functional topic is transnational organized 
crime, which poses a growing threat to U.S. and allied 
interests. These criminal groups will supply the dominant share 
of illicit drugs, fueling record mortality rates among our 
population. They will continue to traffic in human life. They 
will deplete national resources and siphon money from 
governments and the global economy.
    I'd like to briefly go around the world on regional topics, 
starting with East Asia. You know, if you went out and hired a 
private plane and launched from Los Angeles and went around the 
world and stopped at every hot spot in this world, you would 
make multiple dozens of stops. That's the kind of threat that 
we face.
    But let me start with East Asia. North Korea continues to 
pose an ever more increasing threat to the United States and 
its interests. Pyongyang has repeatedly stated that it does not 
intend to negotiate its nuclear weapons and missiles away, 
because the regime views nuclear weapons as critical to its 
security. Kim also probably sees nuclear ICBMs as leverage to 
achieve his long-term strategic ambition to end Seoul's 
alliance with Washington and to eventually dominate the 
peninsula.
    In the wake of its ICBM tests last year, we expect to see 
North Korea press ahead with additional missile tests this 
year, and its foreign minister has threatened an atmospheric 
nuclear test over the Pacific. Pyongyang is committed to 
fielding a long-range nuclear-armored missile capable of posing 
a direct threat to the United States, and modest improvements 
in North Korea's conventional capabilities will continue to 
pose an ever greater threat to South Korea, Japan, and U.S. 
targets in those countries.
    China will increasingly seek to expand its regional 
influence and shape even this and outcomes globally. It will 
take a firm stance on its claims to the East China Sea and 
South China Sea, its relations with Taiwan and its regional 
economic engagement. China also intends to use its ``One Belt, 
One Road'' initiative to increase its reach to geostrategic 
locations across Eurasia, Africa, and the Pacific.
    From East Asia we head to South Asia. In Afghanistan, Kabul 
continues to bear the brunt of the Taliban-led insurgency, as 
demonstrated by recent attacks in the city. Afghan National 
Security Forces face unsteady performance, but, with coalition 
support, probably will maintain control of most major 
population centers.
    Complicating the Afghanistan situation, however, is our 
assessment that Pakistan-based militant groups continue to take 
advantage of their safe havens to conduct attacks in India and 
Afghanistan, including U.S. interests therein.
    Pakistani military leaders continue to walk a delicate 
line. Ongoing Pakistani military operations against the Taliban 
and associated groups probably reflect the desire to appear 
more proactive and responsive to our requests for more actions 
against these groups. However, the actions taken thus far do 
not reflect a significant escalation of the pressure against 
these groups and are unlikely to have a lasting effect.
    In the last month, the Administration has designed--excuse 
me--designated eight militants affiliated with the Taliban, 
Haqqani Network, and other Pakistani militant groups, and we 
assess that Pakistan will maintain ties to these militants 
while restricting counter-terrorism cooperation with the United 
States.
    Next is Russia, where President Putin will continue to rely 
on assertive foreign policies to shape outcomes beyond Russia's 
borders. Putin will resort to more authoritarian tactics to 
maintain control amid challenges to his rule.
    With respect to Russia influence efforts, let me be clear: 
The Russians utilize this tool because it's relatively cheap, 
it's low-risk, it offers what they perceive as plausible 
deniability, and it's proven to be effective at sowing 
division. We expect Russia to continue using propaganda, social 
media, false flag personas, sympathetic spokesmen, and other 
means to influence, to try to build on its wide range of 
operations and exacerbate social and political fissures in the 
United States. There should be no doubt that Russia perceives 
its past efforts have been successful and views the 2018 U.S. 
midterm elections as a potential target for Russian influence 
operations.
    From Russia I'll turn to the Middle East and North Africa. 
This region will be characterized by political turmoil, 
economic fragility, and civil and proxy wars in the coming 
year. Iran will remain the most prominent state sponsor of 
terrorism and adversary in the Middle East, especially in Iraq, 
Syria, and Yemen. Iran will seek to expand its regional 
influence and will exploit the fight against ISIS to solidify 
partnerships and translate battlefield gains into political, 
security, and economic agreements.
    We also assess that Iran will continue to develop military 
capabilities that threaten U.S. forces and U.S. allies in the 
region. For example, Iran has the largest ballistic missile 
force in the Middle East. The Islamic Revolutionary Guard Corps 
navy and its unsafe and unprofessional interactions pose a risk 
to U.S. naval and allied naval operations in the Persian Gulf. 
And Lebanese Hezbollah, with the support of Iran, has deployed 
thousands of fighters to Syria and provides direction to other 
militant and terrorist groups, all fomenting regional 
instability. Iran's provocative and assertive behavior, as we 
saw most recently this past weekend in northern Israel, 
increases the potential for escalation.
    Turkey will seek to thwart Kurdish ambitions in the Middle 
East and the ongoing Turkish incursion into northern Syria is 
complicating ongoing counter-ISIS activities in the region and 
increases the risk to U.S. forces located in the area.
    Syria will face unrest and fighting through 2018, even as 
Damascus recaptures urban areas and violence decreases in some 
areas.
    Iraq is likely to face a lengthy period of political 
turmoil and conflict. The social and political challenges that 
gave rise to ISIS remain and Iran has exploited those 
challenges to deepen its influence in Iraq's military and 
security elements, diplomatic and political arms.
    The war in Yemen between the Iranian-backed Houthis and the 
Saudi-led coalition is likely to continue and will worsen the 
already tragic humanitarian crisis for 70 percent of the 
population of about 20 million people in need of assistance. 
The situation in Yemen is emblematic of a far larger problem: 
The number of people displaced by conflict around the world is 
the highest that it's been since the end of World War II.
    Turning to Europe, where I want to draw your attention to 
two significant developments that are likely to continue to 
impact European politics and foreign policy in the coming year, 
let me state first: The continent's center of gravity appears 
to be shifting to France, where President Macron has taken a 
more assertive role in addressing European global challenges. 
The results of the recent German election I think enforce that 
assessment.
    Second, recent efforts by some governments in Central and 
Eastern Europe to undermine judicial independence and 
parliamentary oversight and increase government control over 
public media are weakening the rule of law. These steps could 
presage further democratic decline and offer opportunity for 
Chinese and Russian influence.
    There are many more topics I could discuss. I haven't even 
gotten to the Western Hemisphere or Africa. But I would like to 
close with a discussion of one additional threat, this one 
internal and somewhat personal. I am concerned that our 
increasing fractious political process, particularly with 
respect to Federal spending, is threatening our ability to 
properly defend our Nation, both in the short term and 
especially in the long term. The failure to address our long-
term fiscal situation has increased the national debt to over 
$20 trillion and growing. This situation is unsustainable, as I 
think we all know, and represents a dire threat to our economic 
and national security.
    Former Chairman of the Joint Chiefs of Staff Mike Mullen 
first identified the national debt as the greatest threat to 
our national security. Since then he has been joined by 
numerous respected national security leaders of both parties, 
including former Secretaries of State Madeleine Albright and 
Henry Kissinger, as well as former Defense Secretaries Bob 
Gates and Leon Panetta; and our current Defense Secretary Jim 
Mattis agrees with this assessment.
    Many of you know I have spent a lot of time in my last term 
in the Senate working on this issue and, unfortunately, the 
problem continues to grow. So I would urge all of us to 
recognize the need to address this challenge and to take action 
as soon as possible, before a fiscal crisis occurs that truly 
undermines our ability to ensure our national security.
    With that, I and the rest of the panel are happy to take 
your questions. We appreciate the opportunity to be with you 
today. Thank you, Mr. Chairman.
    [The prepared statement of Director Coats follows:]    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
        
    Chairman Burr. Dan, thank you very much for that very 
thorough overview of the world and what's at play.
    I'll recognize Members based upon seniority for up to five 
minutes. The Chair recognizes himself.
    Admiral Rogers, according to the statement for the record 
the intelligence community assesses that most detected Chinese 
cyber operations against the United States' private industry 
are focused on cleared defense contractors or IT and 
communications firms whose products and services support 
government and private sector networks nationwide. Rate the 
intelligence community's performance when it comes to notifying 
cleared defense contractors and other sensitive private sector 
actors about malicious cyber activities on their networks.
    Admiral Rogers. First, in all honesty, you're asking me to 
rate a function for which I don't have responsibility or day-
to-day execution. So I'll give an opinion, but it's not 
informed by day-to-day experience per se. This is an issue both 
at NSA and at Cyber Command, although I try to work very 
aggressively because, as you have outlined, it's a tremendous 
concern for us in the Department.
    Clearly, I think we are not where we need to be. The 
challenge I think is we've got multiple areas of knowledge and 
insight across the Federal Government, within the private 
sector, and how do we bring this together in an integrated 
team, with some real-time flow back and forth? That is not 
where we are today, but that's where we've got to get to.
    Chairman Burr. In your estimation, are we doing enough to 
warn the private sector of the threat that's out there?
    Admiral Rogers. I think we are informing them as we become 
aware of it. But one of my concerns is we're only going to see 
one slice of this picture. I'm also interested in it from the 
private sector's perspective. Tell us what you are seeing. If 
we can bring these two together, we'll have such a broader 
perspective and much more in-depth knowledge of what's 
happening. I think that's part of this. It's not just, hey, one 
side needs to do a better job. I'm not trying to say it's two-
sided, but I think it's our ability to bring this together as a 
team.
    Chairman Burr. Given that you've seen the difficulty 
especially this Committee and the intelligence community has 
had communicating with the tech companies about a way forward 
that is in commonality, are you concerned at how this is going 
to become an increasingly challenging landscape for both 
Congress and for the intelligence community working as we see 
new tech firms emerge every day?
    Admiral Rogers. Yes, I am, because, quite frankly, I 
wonder, how bad does it have to get before we realize we have 
to do some things fundamentally differently? I would argue if 
you look at the Internet of Things, you look at the security 
levels within those components, folks, this is going to orders 
of magnitude. If we think the problem is a challenge now, if we 
just wait it's going to get much, much worse, exponentially, 
from a security perspective.
    Chairman Burr. Director Pompeo, the IC assesses that North 
Korea is likely to press ahead with more tests in 2018, missile 
tests, noting that North Korea's foreign minister indicated an 
atmospheric nuclear test over the Pacific may be under 
consideration by Pyongyang. What's the IC assess the regional 
reaction to this kind of test would be?
    Director Pompeo. Senator, thanks for the question. If I may 
just take one minute to say, I've been doing this for a year 
now and I want to express my appreciation to this Committee for 
helping the CIA do the things it needs to do, providing us the 
resources and the authorities we need. We have put a lot of 
effort against this very problem. You have been incredibly 
supportive of that. So my team thanks you for that.
    We think a test like that would certainly further unite the 
region. Having said that, our sense is that we have built a 
global coalition pushing back against Kim Jong Un and his 
terror regime. With respect to what each particular country 
might do, I'd prefer to keep that conversation to closed 
session this afternoon.
    Chairman Burr. Great.
    What's the IC's assessment of North Korea's willingness to 
employ its expansive conventional military capabilities?
    Director Pompeo. Senator, one of the things that Director 
Coats referred to in his opening remarks is that Kim Jong Un 
remains not only intent on staying in power, the thing all 
dictators prefer to do, die in their sleep fully at the peak of 
their power; but he has this mission that is a longstanding 
North Korean idea of reunification. Their capacity to use a 
nuclear umbrella combined with their conventional forces to 
exert coercive behavior, certainly inside their country, 
certainly against South Korea, but more broadly, is something 
that our analysts are continuing to look at.
    We can see as they ratchet up their nuclear capability, 
making a response more different, their capacity to do harm in 
the region as a result of their incredible conventional 
capabilities alone increases.
    Chairman Burr. Probably for General Ashley and Admiral 
Rogers: According to the statement for the record, the 
widespread proliferation of artificial intelligence is likely 
to prompt new national security concerns. How is the IC 
accounting for the possibility of these new national security 
concerns? Are we seeing indications now that our adversaries 
are working to harness emerging technologies, like artificial 
intelligence, and is the IC looking to maximize the potential 
of emerging technologies in our own processes and analysis of 
data and intelligence?
    General Ashley. Sir, if I could take a first shot at that 
one. You look at DIA--and thanks for all the support the 
Committee provides to the Defense Intelligence Agency. If you 
look at our coordination, if you look at foreign militaries and 
the operational environment, this is central to looking at 
doctrine and what they're developing. When you think about 
artificial intelligence, our near-peer competitors are pursuing 
this. It's a lot of commercial technology that's available. But 
when you look at the volume, big data and what's available, the 
ability to digest and pull all that information in, artificial 
intelligence is going to be integral to that.
    An example of one of the projects we're working on--and 
this is at the open source level--Project Maven. You look at 
full motion video, for example, or social media. In full motion 
video, you're never going to be able to have the work force 
that's going to be able to go through all of the material, 
whether it's video, whether it's what Admiral Rogers works in 
the way of signals intelligence, or what's available in social 
media. So artificial intelligence, machine learning, which is 
really kind of where we are right now. It's more machine 
learning than it is artificial intelligence. We're seeing all 
of our near-peer competitors invest in these kinds of 
technologies because it's going to get them to decision cycles 
faster, allow them to digest information in greater volumes, 
and have a better situational understanding of what's happening 
in the battle space, and in some cases just what's happening in 
the strategic environment.
    Admiral Rogers. Sir, I would agree with General Ashley. I 
would also highlight, every organization on this table is faced 
with the challenge of victims of our own success in some ways. 
The ability to access data at increased levels brings its own 
set of challenges. So we are collectively all attempting to 
deal with this.
    When I look at potential adversaries, I see them going 
through the same set of challenges. I would argue when I look 
at the PRC in particular, there clearly is a national strategy 
designed to harness the power of artificial intelligence to 
generate strategic outcomes, along the lines that General 
Ashley highlighted, to generate positive outcomes.
    You look at their research, you look at how it is affecting 
the amount of data they are going after. I can remember five, 
ten years ago looking at some data concentrations and thinking 
to myself: This is so large and has such a disparate amount of 
information in it, boy, it would be really different for an 
opponent potentially to generate insight and knowledge from it. 
I don't have those kinds of conversation any more.
    With the power of machine learning, artificial 
intelligence, and big data analytics, data concentrations now 
increasingly are targets of attraction to a whole host of 
actors. We have watched the PRC and others engage in activities 
designed to access these massive data concentrations.
    General Ashley. If I could follow up on that also, because 
this is one of those areas that's debatable in the commercial 
industry, so you see a lot of investment, academia and others, 
that are pursuing this. So there's a key piece of this I think 
is worth addressing as well, which is how do you operationalize 
it? If I could just use a World War II example, the fact that 
there were planes, radios, and tanks was not unique to the 
Germans in World War II. What they did is they came up with an 
operational concept that allowed them to leverage that.
    Peter Singer, if anyone's ever read ``Wired for War'' or 
``Ghost Fleet,'' is a futurist. We sat on a panel with him a 
couple years ago, and it was interesting when I asked him: As 
you look at the things that are emerging from the technology 
and things that are coming out, what do you see in the way of 
breakthroughs to give somebody a really marked advantage? 
Peter's comment wasn't that I see something that gives someone 
such a marked advantage. It's who's able to harness it, who's 
able to operationalize it and put it to effect. So that's 
really a key difference, because a lot of that technology is 
going to be available globally.
    Chairman Burr. Thank you.
    Director Coats. If I could just ask your permission here, 
Robert Cardillo's agency NGA has probably taken some very 
significant lead on this, given the enormous volume of 
collection that they take and the inability to process that 
through the use of humans. I've asked Robert to be prepared to 
answer that question for you because I think they're taking 
some leading efforts that might be helpful.
    Director Cardillo. I think it's important to note at the 
front what hasn't changed. Quite frankly, the mission, the 
responsibility, this whole table has is to provide you with 
decision advantage. What's changed is the world around us and 
now within us. So what we used to hold exclusively because we 
had capabilities that others didn't, is now more shared. So as 
Admiral Rogers has said, this is something that we all lock 
arms on, because it isn't the access that is exclusive anymore; 
it's the use. It's the concept of operations, as General Ashley 
said.
    I have the same concerns you do about getting the 
cooperation we need from these companies. I'm rather optimistic 
about it because I think at the end of the day we can advance 
the American economy, we can advance American entrepreneurship, 
and we can advance our understanding of the world in a way that 
gets back to that first step, which is decision advantage.
    Chairman Burr. Rest assured, the processing of data will 
come up in our closed session with you. I've got you targeted.
    Vice Chair.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    I think I take with some note the fact that the ODNI 
Director started his discussion with cyber. I think it's very 
telling in terms of how we view worldwide threats.
    Let me get one question out on the record. We all know it's 
been over a year since the Russian intervention in our 2016 
elections. We've also seen Russia intervene in a number of 
other Western democracies. I'd like each of you to briefly 
reconfirm to the American public that our intelligence 
community understands this threat.
    Last year those of you who were on the panel each expressed 
confidence in the January 2017 IC assessment that Russia 
interfered in the 2016 elections. I'd like each of you today 
to, one, reaffirm that; and also, with a simple yes or no, do 
you agree with Director Pompeo that we haven't seen a 
significant decrease in the Russian activity and we have every 
expectation--and, Director Coats, you've already alluded to 
this--that they'll try to continue to intervene in our 
elections in 2018 and 2020. We'll start with you, Director 
Cardillo. A simple yes or no will do.
    Director Cardillo. No change in my view of the 2017 
assessment. I support that. And I agree with Director Pompeo's 
assessment about the likelihood of the 2018 occurrence as well.
    Vice Chairman Warner. Admiral.
    Admiral Rogers. I participated in that 2017 work. I stood 
by it then and I stand by it now, and I agree with Director 
Pompeo: This is not going to change or stop.
    Vice Chairman Warner. General Ashley.
    General Ashley. Yes, it is not going to change, nor is it 
going to stop.
    Director Coats. Throughout the entire community, we have 
not seen any evidence of any significant change from last year.
    Director Pompeo. I agree with Director Pompeo.
    [Laughter.]
    Vice Chairman Warner. You've been waiting for that answer.
    Director Pompeo. I have. I've had that one in the pocket 
for a while, yes, sir.
    Director Wray. As do I.
    Vice Chairman Warner. One area that I think we were all a 
little all caught off guard on, and to a degree understandably, 
was how the Russians use social media. I realize this is a new 
area for all of us and there are legitimate issues around 
American civil rights that have to be balanced. But the fact is 
I think we have to have an organized plan going forward.
    This question will be directed at DNI Coats and Director 
Wray, but if others want to weigh in. Because of the notion 
that these companies, while maybe located here, operate in 
cyber space and when we've got somebody masquerading as Mike 
Pompeo but is actually Boris Badenov in St. Petersburg, it 
doesn't fit neatly into a particular flow chart.
    Director Coats and Director Wray, who is in charge of 
addressing the threat posed by foreign nationals or foreign 
nations in terms of their use and misuse of social media?
    Director Coats. There's no single agency, quote, ``in 
charge.'' There are several agencies throughout the Federal 
Government that have equities in this, and we are working 
together to try to integrate that process. It clearly is 
something that needs to be addressed and addressed as quickly 
as possible.
    You and I have had a number of discussions about that. So 
we are keen on moving forward in terms of not only 
identification, but relative response and things that we can do 
to prevent this from happening. We are gaining more, I think, 
support from the private sector, who are beginning to recognize 
ever more the issues that are faced with the material that 
comes through their processes. We cannot as a government direct 
them what to do, but we certainly are spending every effort we 
can to work with them to provide some answers to this question.
    Vice Chairman Warner. Great.
    Director Wray. I would agree with Director Coats. I think 
it's a team effort, and one of the things that's really jumped 
out at me since being back in government is how much more of a 
team the intelligence community is than the last time I was in 
this space. I have one of Mike's people who sits right in my 
inner team, and vice versa, and we're dealing with each other 
every day. So it's teamwork within the intelligence community 
and then partnership with the private sector, which is I think 
the other big change I've noticed. There's a lot more forward-
leaning engagement with the private sector in terms of trying 
to share information and raise awareness on their end, because 
at the end of the day we can't fully police social media, so we 
have to work with them so that they can police themselves a 
little bit better as well.
    Vice Chairman Warner. Well, let me say I think the 
companies themselves are slow to recognize this threat. I think 
they've still got more work to do. But the fact that we don't 
have clarity in terms of who's in charge means I believe we 
don't have a full plan.
    Let me just get one last question in quickly on the rise--
and the Chairman has alluded to this as well--the rise of 
Chinese tech companies. I know Senator Cornyn and Senator 
Feinstein have got legislation on CFIUS. But my fear is that 
some of these Chinese tech companies may not even have to 
acquire an American company before they become pervasive in our 
market.
    Again, I'll start with Director Coats and Director Wray: 
How do we make sure that we send a signal to the private sector 
before some of these companies in effect totally invade our 
market, particularly because so many of them are tied back to 
the Chinese government?
    Director Coats. Well, I think it's not only sending a 
signal and working together, sharing information with the 
private sector and the public sector. It also I think involves 
almost a whole of government issue, in particular legislative, 
with the legislation that is being looked at in terms of the 
CFIUS process. I think we need to go beyond what the current 
process is in terms of evaluating. We as a community will 
coordinate our intelligence to provide policymakers and those 
that are making these decisions with the best intelligence we 
can relative to what the situation is.
    So we view this as a top priority, and it's ongoing 
because, as I mentioned in my earlier remarks here, the Chinese 
are pervasive on this and we've seen it happen throughout both 
the public and the private sector.
    Director Wray. We've tried very hard to be more out and 
about in the private sector in terms of providing what are 
almost like defensive briefings, so that some of the U.S. 
telecommunications companies, among other technology industry 
members, kind of can recognize the threats that are coming 
their way. I think I've been pretty gratified by the response 
that we've gotten by most companies once we're able to try to 
educate them.
    I think one of the bigger challenges we face is that, 
because America is the land of innovation, there's a lot of 
very exciting stuff that's happening in terms of smaller 
startup companies. A lot of them are a lot less sophisticated 
about some of this stuff, and trying to make sure we're 
touching those and educating them as well is a continuing 
challenge. The reality is that the Chinese have turned more and 
more to creative avenues, using nontraditional collectors, 
which I think we in the intelligence community recognize, but I 
think the private sector is not used to spotting. So a lot of 
it is trying to educate them about what to be on the lookout 
for and to have it be more of a dialogue.
    Vice Chairman Warner. Thank you.
    Chairman Burr. Senator Risch.
    Senator Risch. Thank you very much.
    First of all, I want to associate myself with the remarks 
of the Vice Chairman when he said that this Committee will 
always have your backs. For those of you who've been associated 
with this Committee--Dan, since you used to sit here; and 
Director Pompeo, you ran the same operation across the way; Mr. 
Cardillo, Mr. Rogers--you guys seem like part of the committee, 
we see you so much up there. You know that's the case, and we 
sincerely appreciate that.
    Every one of us here knows what a tough job each of your 
agencies has. Speaking for myself and I suspect for most, if 
not all, of the committee, we have absolute 100 percent 
confidence in your ability to, in a very neutral, dispassionate 
fashion, deliver to us the facts that we need in order to make 
the policy decisions.
    One of the things that does rear its ugly head occasionally 
and causes issues and that winds up in the media a lot more 
than it should is when your jobs intersect with domestic 
political affairs. Mr. Wray, probably you will wind up with 
this more than anybody else. It gets messy. It gets difficult. 
I think we've all got to recommit ourselves to what we're 
actually doing here to reach the right facts.
    I would respectfully disagree with my good friend from 
Virginia that we are no better prepared to handle the Russians' 
onslaught in 2018 than we were in 2016. When this happened in 
2016, those of us on this Committee, those of you at the panel, 
and most of you, most everyone who works in the IC, were not 
surprised to find out that the Russians were attempting to 
meddle in our affairs.
    I think probably one of the best hearings we've had this 
year was the open hearing we had on how they use social media. 
We saw how disjointed it was, how ineffective it was, how cheap 
it was for them to do that. But I think after that, with all 
due respect to my friend from Virginia, I think the American 
people are ready for this. I think that now they're going to 
look askance a lot more at the information that is attempted to 
be passed out through social media.
    The American people are smart people. They realize that 
there's people attempting to manipulate them, both domestic and 
foreign. I agree with everybody on the panel that this is going 
to go on. This is the way the Russians have done business. This 
is no surprise to us. We saw it even more so than we got it in 
France and Germany in the past year.
    So I think the American people are much more prepared than 
they were before.
    Dan, thank you for that analysis of Syria. I doubt it made 
it any clearer for me or for the American people. It's a 
Rubik's Cube that is very difficult and, after this weekend, I 
think it got even more complicated. I think that we're going to 
have to keep an eye on that.
    I agree with you, cyber is certainly something that's right 
at the top. The financial condition of this country is of 
critical importance to us.
    I want to close and I want to ask a specific question to 
four of you regarding Korea. I think that's the most 
existential threat that we face. I think it's something that's 
at our doorstep. A year ago when we talked about this, it was 
then. This is now. The movement of North Korea has not slowed 
down. In fact, if anything I think all of us would agree that 
it's probably picked up. And it's at our doorstep.
    This is going to have to be dealt with in the very, very 
near future. We've talked about trying to engage in 
conversations and what conditions would be, etcetera. I think 
we're still in the process of refining that. But that's moving.
    We've all watched over the last week the smile campaign 
that North Korea has inflicted on the South Korean people. The 
South Korean people seem to be charmed by it to some degree. 
Some of them seem to be captivated by it. From my point of 
view, I think it's nothing more than a stall by the North 
Koreans to further develop what they're trying to do; and I 
suspect in my judgment I think we need to be very, very 
cautious of this.
    Director Coats, Pompeo, Rogers, and Ashley, I'd like to 
hear your view of this supposed turn in the last couple of 
weeks by the North Koreans?
    Director Coats. Well, this is an existential threat, 
potentially to the United States, but also to North Korea. Kim 
Jung Un views any kind of kinetic attack or effort to force him 
to give up his nuclear weapons as an existential threat to his 
nation and to his leadership in particular.
    As you know, it's a very hard collection nation, given 
their secrecy and so forth. But we do know that it's a one-man 
decision. We have processes in place here in the United States 
to have multiple engagements with various agencies in terms of 
our policymaking and relative to the decision that ultimately 
the President makes. That does not appear to be the case in 
North Korea.
    The provocative nature and the instability that Kim has 
demonstrated potentially is a significant threat to the United 
States. I agree with you that the decision time is becoming 
ever closer in terms of how we respond to this. Our goal is a 
peaceful settlement. We are using maximum pressure on North 
Korea in various ways, which can be described by my colleagues 
here, most of that in closed session. But we have to face the 
fact that this is a potentially existential problem for the 
United States.
    Senator Risch. Wise words.
    Director Pompeo.
    Director Pompeo. The last part of your question, about this 
past now almost week at the Olympics: We should all, the 
American people should all remember that Kim Jung Un is the 
head of the propaganda and agitation department. There is no 
indication there's any strategic change in the outlook for Kim 
Jung Un and his desire to retain his nuclear capacity to 
threaten the United States of America. No change there.
    Senator Risch. Admiral Rogers.
    Admiral Rogers. I would just say if KJU thinks he can split 
the relationship between ourselves and the South Koreans he is 
sadly mistaken.
    Senator Risch. And finally, Lieutenant General Ashley.
    General Ashley. No change to his strategic calculus. As a 
matter of fact, under the KJU regime you've seen a much more 
deliberate effort in terms of readiness, very different from 
his father. So you've got a million man army, 70 percent of it 
is south of Pyongyang, and they train in a very deliberate 
fashion. The strategic calculus has not changed and we should 
not be misled by the events that are taking place around the 
Olympics.
    Senator Risch. Thank you so much.
    My time is up, Mr. Chairman. Thank you.
    Chairman Burr. Senator Feinstein.
    Senator Feinstein. Thanks very much.
    I want to associate myself with some of the comments of 
Senator Risch. We just had a secure briefing last week and I 
think it was difficult and harsh. I harken back to the words of 
the Secretary of State on the three nos: one, that we do not 
seek regime change; two, we do not--we are not seeking the 
accelerated reunion of the peninsula; and finally, that we will 
not bring U.S. forces north of the Demilitarized Zone if the 
Korean Peninsula is reunified.
    Let me ask you, Mr. Pompeo, because you just spoke with 
some certainty: Does Kim Jung Un really understand and believe 
that our goals are not regime change or regime collapse?
    Director Pompeo. Senator Feinstein, I can't give you any 
certainty about what Kim Jung Un actually subjectively 
believes. A very difficult intelligence problem anywhere in the 
world, most especially difficult there. I have expressed this 
before: We do remain concerned, our analysts remain concerned, 
that Kim Jung Un is not hearing the full story. That is, that 
those around him aren't providing nuance, aren't suggesting to 
him the tenuous nature of his position both internationally and 
domestically, the breach with China, and the deep connections 
between the United States and the Republic of Korea.
    We are not at all certain that the leaders around him are 
sharing that information in a way that is accurate, complete, 
and full.
    Senator Feinstein. In a recent Washington Post op-ed, 
Victor Cha, who was recently under consideration to be United 
States Ambassador to South Korea, warned of the dangers of a 
preventive United States military strike against North Korea. 
He cautioned that such a strike would not halt North Korea's 
nuclear weapons program and could spark an uncontrolled 
conflict in the region that could kill hundreds of thousands of 
Americans.
    He is not the only one. A number of experts on the area 
have said that. He argued to continue to press for multilateral 
sanctions at the UN, to provide Japan and South Korea advanced 
weapons training and intel, and some other things.
    Has the intelligence community assessed how the North 
Korean regime would react to a preventive United States attack?
    Director Pompeo. We have. I would prefer to share that with 
you in closed session this afternoon.
    Senator Feinstein. Would you do that this afternoon?
    Director Pompeo. Yes, absolutely, Senator, yes. We have 
written about various forms of actions. We analyze the 
certainty and uncertainty we have around that analysis, as well 
as what we think happens in the event that the United States 
decides not to do that and continues to allow Kim Jung Un to 
develop his nuclear weapons arsenal.
    Senator Feinstein. Have you explored what it would take to 
bring them to the table?
    Director Pompeo. We have. I prefer to share that with you 
in closed session, yes, ma'am.
    Senator Feinstein. Would you bring that to our attention 
this afternoon as well?
    Director Pompeo. Yes, ma'am.
    Senator Feinstein. Thank you.
    Thank you, Mr. Chairman.
    Chairman Burr. Thank you, Senator Feinstein.
    Senator Rubio.
    Senator Rubio. Thank you.
    Thank you all for being here. I also echo the same words 
everyone else has shared with you about the esteem we have for 
all of our agencies and the important work they do.
    I--and I think this has already been touched upon. I do 
believe that Russia, Vladimir Putin in particular, efforts 
around the world are very important. But the biggest issue of 
our time in my view, and I think in the view of most of the 
Members of this Committee and I would venture to guess most of 
the members of this panel, is China and the risks they pose.
    I'm not sure, in the 240-some odd year history of this 
Nation, we have ever faced a competitor and potential adversary 
of this scale, scope, and capacity. It is my personal view, and 
it's shared by many people, that they are carrying out a well-
orchestrated, well-executed, very patient, long-term strategy 
to replace the United States as the most powerful and 
influential nation on Earth.
    You see that reflected in this repeated use of this term 
``community of common destiny,'' which basically means a 
retreat from Western values of democracy and freedom and 
openness towards some other model that benefits them. Their 
pursuit of this appears to be every element of their national 
power--military, commercial, trade, economic, information, and 
media.
    The tools they use are everything from hacking into 
companies and critical infrastructure and defense contractors, 
everybody you can imagine, to using our immigration system 
against us, to even our universities.
    That's where I wanted to begin. This week I--well, let me 
just ask this, and I'd start this with Director Coats: Is it 
your view that the United States today as a government is 
prepared for the scale, scope, and magnitude of the challenge 
presented by this plan that China's carrying out?
    Director Coats. We have full awareness of what the Chinese 
are, attempting to have full awareness of what the Chinese are 
attempting to do on a global basis. There's no question that 
what you have just articulated is what's happening with China. 
They're doing it in a very smart way. They're doing it in a 
very effective way. They are looking beyond their own region. I 
think they have--it's clear that they have a long-term 
strategic objective to become a world power and they are 
executing throughout the whole of government ways in which they 
can accomplish that.
    We have intensive studies going on throughout the 
intelligence community relative to A to Z on what China is 
doing. General Mattis has asked us for that. Others have asked 
us to provide that. Senator Warner called me last week. We had 
a discussion on that. I assured him that we are pulling all of 
our elements of intelligence-gathering together to provide a 
very, very deep dive into what China is doing now and what 
their plans are for the future and how it would impact on the 
United States.
    Senator Rubio. Just to highlight the different ways and 
untraditional ways in which they're pursuing this plan, 
Director Wray, let me ask you, what in your view could you say 
in this setting is the counterintelligence risk posed to U.S. 
national security from Chinese students, particularly those in 
advanced programs in the sciences and mathematics?
    Director Wray. I think in this setting I would just say 
that the use of nontraditional collectors, especially in the 
academic setting, whether it's professors, scientists, 
students, we see in almost every field office that the FBI has 
around the country. It's not just in major cities. It's in 
small ones as well. It's across basically every discipline.
    I think the level of naivete on the part of the academic 
sector about this creates its own issues. They're exploiting 
the very open research and development environment that we 
have, which we all revere, but they're taking advantage of it.
    So one of the things we're trying to do is view the China 
threat as not just a whole of government threat, but a whole of 
society threat on their end. I think it's going to take a whole 
of society response by us. So it's not just the intelligence 
community, but it's raising awareness within our academic 
sector, within our private sector, as part of the defense.
    Senator Rubio. In that vein, last week I wrote a letter to 
five higher education institutions in Florida about the 
Confucius Institutes, which are funded by Chinese government 
dollars, at U.S. schools. It is my view that they're complicit 
in these efforts to covertly influence public opinion and to 
teach half-truths designed to present Chinese history, 
government, or official policy in the most favorable light.
    Do you share concerns about Confucius Institutes as a tool 
of that whole of society effort and as a way to exploit the 
sort of naive view among some in the academic circles about 
what the purpose of these institutes could be?
    Director Wray. We do share concerns about the Confucius 
Institutes. We've been watching that development for a while. 
It's just one of many tools that they take advantage of. We 
have seen some decrease recently in their own enthusiasm and 
commitment to that particular program, but it is something that 
we are watching warily and in certain instances have developed 
appropriate investigative steps.
    Senator Rubio. Thank you.
    Chairman Burr. Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman.
    Vice Chairman Warner highlighted in his opening statement 
the importance of an effective security clearance process. So 
I've got a question for you, Director Wray. Was the FBI aware 
of allegations related to Rob Porter and domestic abuse? And if 
so, was the White House informed this could affect his security 
clearance? When were they informed? And, who at the White House 
was informed?
    Director Wray. Well, Senator, there's a limit to what I can 
say about the content of any particular background 
investigation, for a variety of reasons that I'm sure you can 
appreciate. I would say that the background investigation 
process involves a fairly elaborate set of standards, 
guidelines, protocols, agreements, etcetera, that have been in 
place for 20-plus years, and I'm quite confident that in this 
particular instance the FBI followed the established protocols.
    Senator Wyden. So was the White House informed that this 
could affect his security clearance? That's a yes or no.
    Director Wray. I can't get into the content of what was 
briefed to the----
    Senator Wyden. What were they informed?
    Director Wray. What I can tell you is that the FBI 
submitted a partial report on the investigation in question in 
March and then a completed background investigation in late 
July; that soon thereafter we received request for follow-up 
inquiry; and we did the follow-up and provided that information 
in November; and that we administratively closed the file in 
January; and then earlier this month we received some 
additional information and we passed that on as well.
    Senator Wyden. Okay. Let me turn now to the two recent 
arbitrary and inconsistent decisions that affect the 
politicizing of the classification system. The first was the 
public release of the Nunes memo. The second involved the 
report that the Congress required on Russian oligarchs, their 
relationship with President Putin, and indications of 
corruption. In that case the Secretary of the Treasury released 
nothing other than a list of rich Russians taken from public 
sources.
    My question--and any of you can respond--Did any of you 
take a position on either of these two arbitrary classification 
decisions, and did any of you have any communications with the 
White House about either of those classification matters?
    Director Coats. I'll start, and the answer is no.
    General Ashley. No.
    Admiral Rogers. I raised concerns on this issue with the 
DNI.
    Director Cardillo. No.
    Director Pompeo. The CIA was not asked to review the 
classification of the document.
    Director Wray. Not on the second, the oligarch Treasury 
document. We did have interaction about the memo from Chairman 
Nunes.
    Senator Wyden. Is there anything you can say that protects 
sources and methods in an open session with respect to that 
matter?
    Director Wray. Well, I would just say, as we said publicly, 
that we had grave concerns about that memo's release.
    Senator Wyden. Okay.
    On encryption: Director Wray, as you know--this isn't a 
surprise because I indicated I would ask you about this--you 
have essentially indicated that companies should be making 
their products with back doors in order to allow you to do your 
job. And we all want you to protect Americans. At the same 
time, sometimes there's these policies that make us less safe 
and give up our liberties. That's what I think we get with what 
you are advocating, which is weak encryption.
    Now, this is a pretty technical area, as you and I have 
talked about, and there's a field known as cryptography. I 
don't pretend to be an expert on it. But I think there is a 
clear consensus among experts in the field against your 
position to weaken strong encryption. So I have asked you for a 
list of the experts that you have consulted. I haven't been 
able to get it. Can you give me a date this afternoon when you 
will give me--this morning--a sense of when we will be told who 
these people are and who is advising you to pursue this route? 
Because I don't know of anybody respected in the field who is 
advising that it is a good idea to adopt your position to 
weaken strong encryption. So can I get that list?
    Director Wray. I would be happy to talk more about this 
topic this afternoon. My position is not that we should weaken 
encryption. My position is that we should be working together, 
government and the private sector, to try to find a solution 
that balances both concerns.
    Senator Wyden. I'm on the program for working together. I 
just think we need to be driven by objective facts, and the 
position you all are taking is out of sync with what all the 
experts in the field are saying. I would just like to know who 
you are consulting with, and we'll talk some more about it this 
afternoon.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Director Pompeo, last week the New York Times published a 
report that alleged that U.S. intelligence officials had paid 
$100,000 to a Russian source for phony secrets, including 
potentially compromising information about the President and 
information on certain tools allegedly stolen from the NSA.
    First, is it accurate that the CIA has categorically denied 
the assertions in this story? And second, if so, what would be 
the motivations of a Russian who peddled this story to the New 
York Times and other Western media outlets? Is this part of the 
Russian campaign to undermine faith in Western democracies?
    Director Pompeo. Senator Collins, first let me say thanks 
for the question. Reporting on this matter has been atrocious. 
It's been ridiculous, totally inaccurate. In our view, the 
suggestion the CIA was swindled is false. The people who were 
swindled were James Risen and Matt Rosenberg, the authors of 
those two pieces. Indeed, it's our view that the same two 
people who were proffering phony information to the United 
States Government proffered that same phony information to 
these two reporters.
    The Central Intelligence Agency did not provide any 
resources, no money, to these two individuals who proffered 
U.S. Government information directly or indirectly at any time. 
And the information that we were working to try and retrieve 
was information that we believed might well have been stolen 
from the U.S. Government. It was unrelated to this idea of 
kompromat that appears in each of those two articles.
    Senator Collins. Thank you.
    Director Wray, the President has repeatedly raised concerns 
about current and former FBI leaders and has alleged corruption 
and political bias in the performance of the FBI's law 
enforcement and national security missions. I want to give you 
the opportunity today to respond to those criticisms. What is 
your reaction?
    Director Wray. Well, Senator, I would say that my 
experience, now six months in with the FBI, has validated all 
my prior experiences with the FBI, which is that it is the 
finest group of professionals and public servants I could hope 
to work for. Every day, many, many, many times a day, I'm 
confronted with unbelievable examples of integrity, 
professionalism and grit.
    There are 37,000 people in the FBI, who do unbelievable 
things all around the world. Although you would never know it 
from watching the news, we actually have more than two 
investigations. And most of them do a lot to keep Americans 
safe.
    Senator Collins. Thank you. That's one of the reasons I 
wanted to give you an opportunity to respond.
    Director Coats, we've had a lot of discussion this morning 
about Russian attempts, which are ongoing, to influence 
elections in Western democracies, to undermine NATO, and to try 
to destroy institutions in our country and elsewhere. This is 
an election year in our country and it's, frankly, frustrating 
to me that we haven't passed legislation to help states 
strengthen their security of their voting systems.
    Putting that issue aside, there is also going to be an 
election this year in Latvia, one of our NATO allies. What is 
your assessment of whether or not the Russians are actively 
engaged in trying to influence that election, and how concerned 
is the intelligence community that they might be successful in 
producing a government that is very sympathetic to Russia's 
foreign policy objectives?
    Director Coats. Not only are we concerned, the 29 nations 
of NATO are concerned. I returned not that long ago from a 
meeting in Brussels with the intelligence arm of NATO, all 29 
nations. The topic was addressed primarily on Russian meddling 
in elections and trying to undermine democratic values. At the 
end of that, the new director of that organization asked for a 
show of hands or any verbal response from any representatives 
of the 29 nations if they thought that Russia had not 
interfered with their processes, and particularly their 
elections, or had the potential to do so. Not one person raised 
their hand.
    He said: So do I understand that we are unanimous in 
assessing what the Russians are trying to do to undermine our 
elections, to undermine our coordination with the United States 
and relationships with each other, to undermine the very basic 
principles of sharing with other European countries, everything 
that is accomplished through NATO? Do I understand that no one 
has an objection to--you all see this for what it is?
    Dead silence. He said: I take silence to be consent. So I 
think that says that this is pervasive, that the Russians have 
a strategy that goes well beyond what's happening here in the 
United States, even though--while they have historically tried 
to do these kinds of things, clearly in 2016 they upped their 
game. The took advantage, sophisticated advantage of social 
media. They're doing that not only in the United States, 
they're doing that throughout Europe and perhaps elsewhere.
    So I think that sends a very strong signal that any 
elections that are coming up need to be--we need to assume that 
there might be interference with that, particularly from the 
Russians and maybe from some other malign actors, and steps 
need to be taken to work with State and local officials, 
because many of these elections in the off year will be State 
and local--governorships, even members of certain houses of 
representation within the states themselves.
    So it clearly is an issue that is whole of government and 
whole of--I would say this: The more--and we also agreed with 
this at Brussels and I tried to make that point while I was 
there. The more transparency we can provide to the American 
people, to people of nations that see this threat coming, the 
better off we will be.
    Obviously, we have to take other measures. But we need to 
inform the American public that this is real, that it's going 
to be happening, and the resilience needed for us to stand up 
and say we're not going to allow some Russian to tell us how to 
vote, how we ought to run our country. I think there needs to 
be a national cry for that.
    Senator Collins. Thank you. Very valuable.
    Chairman Burr. Senator Heinrich.
    Senator Heinrich. Thank you, Chairman.
    Director Wray, the FBI has been accused of political bias 
recently against the President, by the President himself. In 
fact, he said the FBI's reputation is, quote, ``in tatters.'' 
Do you think the FBI's reputation is in any way in tatters, and 
are you confident in the independence of your agents?
    Director Wray. Senator, there's no shortage of opinions 
about our agency, just like every other agency up here and just 
like the Congress. I can only speak from my experience.
    Senator Heinrich. I think you're doing better than the 
Congress.
    Director Wray. And my experience has been that every office 
I go to, every division I go to, has patriots, people who could 
do anything else with their careers, but have chosen to work 
for the FBI because they believe in serving others. The 
feedback I get from our State and local law enforcement 
partners, from our foreign partners, from the folks we work 
with in the private sector and the community, office after 
office after office, has been very, very gratifying and 
reassuring to me.
    I'm a big believer in the idea that the FBI speaks through 
its work, through its cases, through the victims it protects. I 
encourage our folks not to get too hung up on what I consider 
to be the noise on TV and in social media.
    Senator Heinrich. So you haven't seen any evidence of some 
sort of inherent political bias in the agency?
    Director Wray. No.
    Senator Heinrich. How do statements like that impact the 
morale of rank and file agents, or are they able to shake that 
off?
    Director Wray. Well, we have 37,000 people. They're all 
individuals. They all think in their own way. But I guess I 
would say that our people are very mission-focused. They're 
accustomed to the fact that we do some of the hardest things 
there are to do for a living. And I like to think that our 
folks are pretty sturdy.
    I think of a woman I met just the other day, an agent in 
the Miami office, who had a bad accident, 12 stitches in her 
face, and the next day, boom, right back at work. I think about 
the folks in the San Juan office that I visited recently. You 
want to talk about people going through a real storm. They do 
it, and they're out in the community. I can tell you, the 
community values what they do on the island.
    Senator Heinrich. Thank you.
    An op-ed by a number of former intelligence analysts called 
the Nunes memo and its release, quote, ``one of the worst cases 
of politicization of intelligence in modern American history,'' 
end quote. You said you had concerns about that memo. I know 
you can't get into the gritty details of that, but can you say 
in your view whether or not one of those concerns is that it 
may have selectively cherry-picked information without 
presenting the entire fact pattern that led up to that FISA 
warrant application?
    Director Wray. Well, Senator, I would just repeat what we 
said at the time, which is that we had then and continue to 
have now grave concerns about the accuracy of the memorandum 
because of omissions. We provided thousands of documents that 
were very sensitive and lots and lots of briefings, and it's 
very hard for anybody to distill all that down to three and a 
half pages.
    Senator Heinrich. Director Pompeo, have you seen Russian 
activity in the lead-up to the 2018 election cycle?
    [Pause.]
    Director Pompeo. Yes. I paused only I'm trying to make sure 
I stay on the unclassified side. Yes, we have seen Russian 
activity and intentions to have an impact on the next election 
cycle here.
    Senator Heinrich. Director Coats.
    Director Coats. Yes, we have.
    Senator Heinrich. Anyone else? Admiral Rogers.
    Admiral Rogers. Yes, and I think this would be a good topic 
to get into greater detail this afternoon.
    Senator Heinrich. This afternoon, right.
    According to news reports, there are dozens of White House 
staff with only interim security clearances still, to include 
Jared Kushner, until last week to include White House Staff 
Secretary Rob Porter, what I would assume would have regularly 
reviewed classified documents as part of his job.
    Director Coats, if someone is flagged by the FBI with areas 
of concern in their background investigations into White House 
staff with interim clearances, should those staff continue to 
have access to classified materials?
    Director Coats. Let me first just speak in general relative 
to temporary classifications. Clearly, with a new 
administration in particular, we're trying to fill a lot of new 
slots. And the classification process and security clearance 
process, as has been mentioned----
    Senator Heinrich. I'm only speaking with regard to folks 
who may have had issues raised, as opposed to just being in the 
matter of course of going through the long process.
    Director Coats. Well, I'm not in a position--and we can 
talk about this in the classified session. But I'm not in a 
position to discuss what individual situations are for 
specified individuals. I might just say that I think sometimes 
it is necessary to have some type of preliminary clearance in 
order to fill a slot. But I have publicly stated if that is the 
case the access has to be limited in terms of the kind of 
information they can be in a position to receive or not 
receive.
    So I think that's something that we have to do as a part of 
our security clearance review. The process is broken. It needs 
to be reformed. As Senator Warner has previously said, it's not 
evolution; it's revolution. We have 700,000 backups. So we have 
situations where we need people in places, but they don't yet 
have that.
    Your specific question I think I'd like to take up in the 
classified session.
    Senator Heinrich. Chairman, I'm over my time.
    Thank you, Director Coats.
    Chairman Burr. Senator Blunt.
    Senator Blunt. Thank you, Mr. Chairman.
    Director Coats, Director Pompeo, Admiral Rogers, I think 
you all talked about evidence that the Russians would intend to 
do things to be active in our elections. There really seems to 
me two divisions of that activity. One is information that's 
put on the record, misleading, false, trying to develop that 
level. The other, even more sinister, might be the level of 
dealing with the election system itself, the voting day system, 
the registration system. Of those two, clearly the voting day 
system, the one we need to have the most concerns about that 
critical infrastructure.
    This Committee has been working toward both of those goals, 
of trying to shore up critical infrastructure on Election Day 
as well as alert people to and decide what might be done about 
misinformation on the other side of the ledger.
    Voting begins in March. That's next month. If we're going 
to have any impact on securing that voting system itself, it 
would seem to me that we need to be acting quickly. I think a 
great part of the strength of the system is the diversity of 
the system, different not only from State to State, but from 
election jurisdictions within those states. That's a strength, 
not a weakness, in my view.
    But what are some of the things we can do to be more 
helpful to local election officials in encouraging them to 
share information when they think their systems are being 
attacked, getting more information to them than we have. There 
was a lot of criticism in the last cycle that we knew that some 
election systems were being attacked and didn't tell them they 
were being attacked.
    So the three of you in any order. Let's just do the order 
that I started with: Director Coats, Director Pompeo, and 
Admiral Rogers. Any thoughts you have on what we can do to 
protect the critical infrastructure of the election system and 
how quickly we need to act if we intend to do that this year?
    Director Coats. Well, the intelligence community, all 
elements of it are aware, and we want to provide, collect and 
provide, as much information as we can, so that we can give 
those warnings and alerts, so that we can share information 
back and forth with local and State on election processes.
    With the Federal Government, the Department of Homeland 
Security, the FBI, obviously are more involved, given these are 
domestic issues. But we do look to every piece of intelligence 
we can gather, so that we can provide these warnings. It is an 
effort that I think the government needs to put together at the 
State and local level and work with those individuals who are 
engaged in the election process.
    In terms of the security of their machines, cyber plays a 
major role here. So I think it is clearly an area where the 
Federal Government, foreign collection on potential threats of 
interference, warnings, and then processes in terms of how to 
put in place security and secure that to ensure the American 
people that their vote is sanctioned and well and not 
manipulated in any way whatsoever.
    Senator Blunt. Director Pompeo.
    Director Pompeo. Senator Blunt, when I answered Senator 
Heinrich's question earlier I was referring to the former, the 
first part of your question, not truly to the latter. The 
things we've seen Russia doing to date are mostly focused on 
information types of warfare, the things that Senator Warner 
was speaking on most directly earlier.
    With respect to the CIA's role--and I think Admiral Rogers 
will say his, too--we have two missions. One is to identify, 
identify the source of this information, make those here 
domestically aware of it so that they can do the things they 
need to do, whether that's FBI or DHS, so that they have that 
information. We are working diligently along many threat 
vectors to do that.
    Then the second thing--and we can talk more about this this 
afternoon--is we do have some capabilities offensively to raise 
the cost for those who would dare challenge the United States' 
elections.
    Senator Blunt. After Admiral Rogers, Director Wray, I may 
want to come to you and see on that same, sharing information, 
any impediments to sharing that information with local 
officials or any reason we wouldn't want to do that.
    Admiral Rogers.
    Admiral Rogers. Sir, the only other thing I would add--and 
this is also shaped by my experience at Cyber Command, where I 
defend networks--is one of the things that we generally find in 
that role, many network and system operators do not truly 
understand their own structures and systems. So one of the 
things that I think is part of this is how do we help those 
local, federal, State entities truly understand their network 
structure and what its potential vulnerabilities, and to 
harness this information that the intelligence structure and 
other elements are providing them. It's not necessarily an 
intel function, but I think it's part of how we work our way 
through this process.
    Senator Blunt. Director Wray.
    Director Wray. Senator, I think that's just one of the 
areas that--there's been a lot of discussion about whether 
we're doing better and this is one of the areas I think we are 
doing better. We together, at the FBI, together with DHS, 
recently, for example, scheduled meetings with various 
election, State election officials. Normally the barrier there 
would be classification concerns, whether somebody had 
clearances. We were able to put together briefings, 
appropriately tailored and with nondisclosure agreements, with 
those officials. So there are ways, if people are a little bit 
creative and forward-leaning, to educate the State election 
officials, which is of course where elections are run in this 
country.
    Senator Blunt. Well, hopefully we'll be creative and 
forward-leaning and we'll want to keep track of what we're 
doing there.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator King.
    Senator King. Thank you, Mr. Chairman.
    The first statement I want to make is more in sorrow than 
in anger. I'll get to the anger part in a minute. The sorrow 
part is that, Director Coats, in response to a question from 
Senator Collins, you gave an eloquent factual statement of the 
activities of the Russians and the fact that they're continuing 
around the world and that they're a continuing threat to this 
country. All of you have agreed to that.
    If only the President would say that. I understand the 
President's sensitivity about whether his campaign was in 
connection with the Russians. That's a separate question. But 
there is no question--we've got before us the entire 
intelligence community--that the Russians interfered in the 
election in 2016, they're continuing to do it, and they're a 
real imminent threat to our elections in a matter of eight or 
nine months.
    My problem is I talk to people in Maine who say: The whole 
thing is a witch hunt and it's a hoax because the President 
told me. I just wish you all could persuade the President as a 
matter of national security to separate these two issues. The 
collusion issue is over here, unresolved; we'll get to the 
bottom of that. But there's no doubt, as you all have testified 
today. We cannot confront this threat, which is a serious one, 
with a whole of government response when the leader of the 
government continues to deny that it exists.
    Now let me get to the anger part. The anger part involves 
cyber-attacks. You have all testified that we're subject to 
repeated cyber-attacks. Cyber-attacks are occurring right now 
in our infrastructure all over this country. I am sick and 
tired of going to these hearings, which I've been going to for 
five years, where everybody talks about cyber-attacks, and our 
country still does not have a policy or a doctrine or a 
strategy for dealing with them.
    This is not a criticism of the current Administration. I'm 
an equal opportunity critic here. The prior Administration 
didn't do it either.
    Admiral Rogers, until we have some deterrent capacity we 
are going to continue to be attacked. Isn't that true?
    Admiral Rogers. Yes, sir. We have to change this current 
dynamic, because we're on the wrong end of the cost equation.
    Senator King. And we are trying to fight a global battle 
with our hands tied behind our back.
    Director Coats, you have a stunning statement in your 
report: ``They will work to use cyber operations to achieve 
strategic objectives, unless they face clear repercussions for 
their cyber operations.'' Right now there are none. Is that not 
the case? There are no repercussions. We have no--we have no 
doctrine of deterrence. How are we ever going to get them to 
stop doing this if all we do is patch our software and try to 
defend ourselves?
    Director Coats. Those are very relevant questions and I 
think everyone, not only at this table but in every agency of 
government, understands the threat that we have here and the 
impact already being made through these cyber threats. Our role 
as the intelligence community is to provide all the information 
we possibly can as to what is happening, so our policymakers 
can take that, including the Congress, and shape policy as to 
how we are going to respond to this and deal with this in a 
whole of government way.
    Senator King. It just never seems to happen. Director 
Pompeo, you understand this issue, do you not? We are not going 
to be able to defend ourselves from cyber-attacks by simply 
being defensive. We have to have a doctrine of deterrence. If 
they strike us in cyber, they are going to be struck back in 
some way. It may not be cyber.
    Director Pompeo. I would agree with you. I would also argue 
that--and while I can't say much in this setting, I would argue 
that your statement that we have done nothing does not reflect 
the responses that, frankly, some of us at this table have 
engaged in and the United States Government has engaged in, 
both before and after this--excuse me--both during and before 
this Administration.
    Senator King. But deterrence doesn't work unless the other 
side knows it. The doomsday machine in Dr. Strangelove didn't 
work because the Russians hadn't told us about it.
    Director Pompeo. It's true that it's important that the 
adversary know it. It is not a requirement that the whole world 
know it.
    Senator King. And the adversary does know it in your view?
    Director Pompeo. I'd prefer to save that for another forum.
    Senator King. Well, I believe that this country needs a 
clear doctrine: What is a cyber-attack, what is an act of war, 
what will be the response, what will be the consequences? Right 
now I haven't seen it.
    Director Pompeo. Senator, I agree with you, we 
collectively. It is a complicated problem, given the nature 
of----
    Senator King. I include us, by the way.
    Director Pompeo. Yes, I would too. I sat as a member of the 
House of Representatives for six years. I take responsibility 
for not having been part of solving that, too.
    There is a lot of work here to do. We do need a U.S. 
Government strategy and clear authorities to go achieve that 
strategy.
    Senator King. I appreciate it. I just don't want to go home 
to Maine when there's a serious cyber-attack and say: Well, we 
never really got to it; we knew it was a problem, but we had 
four different committees of jurisdiction and we just couldn't 
work it out.
    Director Pompeo. Yes, sir.
    Senator King. That's not going to fly.
    Director Pompeo. Yes, sir.
    Senator King. Thank you, gentlemen, for your service.
    Director Coats. Senator, I might just add that we don't 
want to learn this lesson the hard way. 9/11 took place because 
we were not coordinating our efforts. We are now coordinating 
our efforts, but we didn't have the right defenses in place 
because the right information was not there. Our job is to get 
that right information to the policymakers and get on with it, 
because it's just common sense. If someone is attacking you and 
there's no retribution or response, it's just going to 
incentivize more contacts. Right now there are a lot of blank 
checks. There's a lot of things that we need to do.
    Senator King. Director Coats, thank you. I appreciate that.
    Thank you, Mr. Chairman.
    Chairman Burr. Senator Lankford.
    Senator Lankford. Thank you.
    Director Coats, you and I talked last year about this same 
issue that Senator King was just bringing up as well about 
cyber doctrine and a point person, on who that would be, and a 
defined person that would give options to the President and the 
Congress to say, if a response is needed and is warranted, this 
is the person, this is the entity, that would make those 
recommendations and allow the President to be able to make the 
decisions on what the proper response is.
    Has that been completed? Is there a point person to be able 
to give recommendations on an appropriate response to a cyber-
attack to the President?
    Director Coats. That has not yet been completed. Of course, 
your understanding of the standup of Cyber Command and the new 
director that will be replacing Admiral Rogers--the decision 
relative to whether there would be a separation between the 
functions that are currently now NSA and Cyber has yet to be 
made. General Mattis is contemplating what the next best step 
is. They've involved the intelligence community in terms of 
making decisions on that role. But we at this particular point 
cannot point to one sort of cyber czar, but various agencies 
throughout the Federal Government are taking this very, very 
seriously and there are individuals that continue to meet on a 
regular basis.
    The ODNI has something called CTIIC and that is a 
coordination effort for all the cyber that comes in, so that we 
don't stovepipe like what we did before 9/11. So things are 
under way. But in terms of putting a finalized, this is how 
we're going to do it, together, it's still in process.
    Director Pompeo. Senator Lankford, with respect to 
responses to that, these are Title 10 DOD activities unless 
they are granted to some other authority, a Title 50 authority. 
So there is a person responsible. Secretary Mattis has that 
responsibility to advise the President on the appropriateness 
of responses in all theaters of conflict with our adversaries.
    Senator Lankford. Thank you.
    I want to bring up the issue of the rising threat of what's 
happening just south of our border in Mexico. In Mexico the 
homicide rate went up 27 percent last year. We had 64,000 
Americans that died from overdose of drugs. The preponderance 
of those came through or from Mexico. We have a very rapidly 
rising threat, it appears to me.
    What I'd be interested in from you all is, on a national 
security level and what you're seeing, what are we facing? 
What's changing right now in Mexico versus ten years ago in 
Mexico in our relationship and the threats that are coming from 
there?
    Director Coats. I would defer to Director Wray relative to 
what his agency is doing. Clearly, we have a continuing problem 
and the Mexican government has a continuing problem relative to 
the gangs and the organizations. There have been some high-
profile arrests lately. We've taken down some labs. Mexico is 
cooperating, but they themselves will admit that it's almost 
overwhelming--their army's been participating--it's almost 
overwhelming for them to control the situation south of the 
border. We have our own issues then on border protection and as 
well as consumption here in the United States.
    Senator Lankford. Director Wray.
    Director Wray. In many ways what we're seeing is just more 
of the same. But one of the things that's changed, because I 
think that was at the heart of your question, I think we're 
seeing--one of the things we're watching in particular is more 
black market fentanyl being shipped to transnational criminal 
organizations in Mexico, and then their taking advantage of the 
pricing advantages, and that's being then delivered in large 
quantities to our streets.
    Certainly the Mexico relationship is from a law enforcement 
perspective and from a domestic security perspective one of our 
most important. I think the FBI LEGAT office in Mexico is our 
largest in the world. I'm pretty sure about that, or pretty 
close to it if not. That's a reflection of how much activity 
there is.
    Senator Lankford. Let me ask you a specific Oklahoma 
question. It's also a national question. There was an 
individual named Alfallaj that was picked up in Weatherford, 
Oklahoma, just a couple of weeks ago by the FBI. His 
fingerprints were identified from a terror training camp in 
Afghanistan. He'd been in the country for multiple years.
    What I'm trying to be able to determine is the coordination 
of information, the local law enforcement and from data that's 
gathered from some of the work that's happening overseas in 
Afghanistan and such. How are those two being married together 
that we can identify individuals that are a threat to our 
Nation based on their participation in a terror training camp 
overseas, now coming to the American shores?
    Director Wray. Well, certainly we've become better at 
looking at biometric information from overseas and marrying it 
up with potential threat subjects here in the U.S. as well as 
in some of our allies. The individual in question, of course, 
turned out to have his fingerprints on information from the Al-
Farooq Camp. It's just a reminder to us that an awful lot of 
people went through those camps. And while the civilized world, 
the intelligence community, law enforcement, military, our 
allies around the world, made a major dent on those people, 
we're kidding ourselves if we think that an awful lot of them 
aren't still out there, and it's just a reminder that we need 
to stay on the balls of our feet.
    Senator Lankford. Thank you.
    General Ashley. Senator Lankford, if I could. One 
additional point. You asked what has changed in Mexico. What 
has also transpired over the last couple years is you had five 
principal cartels. We alluded to a number of captures that have 
taken place, over 100. Those five cartels have kind of devolved 
into 20, and part of that outgrowth, you see an increase in the 
level of violence.
    Chairman Burr. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank all of you. First let me just tell you, on behalf of 
the people of West Virginia, I want to thank you for the job 
you do in keeping us safe, the professionalism. And we have all 
the utmost confidence in what you're doing and hope to be able 
to support even further. But thank you. The people really do 
appreciate it and we appreciate the service you're giving.
    Director Coats, I think you and I both were in the Senate 
at the same time when Mike Mullen, then-Admiral Mullen, said 
that the greatest threat we face--I was on Armed Services; you 
were on Intelligence at that time. We were trying to find out 
what the greatest threat the United States faces. I was 
thinking of another country, whether it be Russia, China, or 
whatever. He didn't hesitate when he said that the threat of 
our Nation, the greatest threat is the debt of our Nation. I 
think you just reiterated that in your opening remarks.
    Director, I was a little bit mystified by the report, the 
worldwide threat assessment. You didn't mention the debt in 
here. It wasn't in the report as a threat to the Nation, and I 
didn't know if there was a thought process behind that, because 
you made a tremendous effort to put that in your opening 
statement. I appreciate that. But tell me what your thought 
process here was?
    Director Coats. Well, my thought process was that I'm 
getting a little bit out of my lane in terms of what I'm 
supposed to do, but I felt that----
    Senator Manchin. I mean, you do think it's a threat? It's 
not in this assessment.
    Director Coats. It's just something that Congress needs to 
deal with, and I didn't want to come back and preach at you.
    Senator Manchin. I got you.
    Director Coats. But I thought at the very end--in fact, 
just yesterday--look, I think I have a responsibility to raise 
this issue because it does affect the military significantly, 
it affects the intelligence community, which is tied to the 
military in terms of intelligence. It's going to have a serious 
effect on us if we can't control it.
    Senator Manchin. Well, you've sat on both sides of the 
aisle. The only thing that seems to be bipartisan here today is 
spending money. Both sides seem to agree on spending more 
money, without any accountability. So I'm glad to hear your 
remarks on that.
    If I could, to all the witnesses: I share what Senator 
Lankford has said about concerns about what's killing more 
Americans than any of the threats discussed that we have today. 
It's with drugs. My State of West Virginia's been hit harder 
than any State. I've got more deaths per capita than any State. 
It's been ravaging as far as my communities, my homes, my 
schools, the families. It's just unbelievable what we're going 
through.
    I think in a nutshell what I would be asking--all of you 
are responsible to do everything you can to keep us safe and 
you've done a tremendous job as far as from the foreign attack 
and things of that sort. Director Wray, I appreciate what the 
FBI does and they have a strong presence in West Virginia and 
we're very, very appreciative of that. What type of efforts 
from each one of your agencies have you spent as far as--Is 
drugs and fighting the drug infestation highest on your 
priority list, one of your greatest dangers, or is it just part 
of the overall scheme of things?
    Director Coats. Just speaking for the intelligence 
community, it is a high priority for us. We mentioned it in our 
threat assessment here. So we are the collectors of foreign 
sources, transnational organizations, etcetera, whether it's 
coming from overseas, whether it's coming from Afghanistan, 
whether it's coming from Colombia, what it is, how it's going.
    Then of course it is a whole of government, because once it 
penetrates the United States we then use our domestic agencies 
to address that.
    Senator Manchin. Director Wray, as far as the FBI, because 
you're on the front line--you're here on the homeland--what do 
you think? What can we do to help?
    Director Wray. Well, I think on the good news side, in a 
country that's often very divided this is one issue as far as I 
can tell where everybody agrees about what a major, major 
threat it is. It covers communities from North to South, from 
red to blue, from rich to poor, from urban to rural. I think 
that's the good news.
    The bad news is that it's grown to a point where there's no 
one agency or one approach that's going to solve the problem. 
So we're doing our part. Some of the things that we're able to 
do, we're focusing particularly on gatekeepers, because a lot 
of this is coming through medical professionals and pharmacies. 
So we're using intelligence-driven operations there, various 
initiatives. We have a prescription drug initiative that's 
focused on that part of it.
    We're partnering with our foreign counterparts. We're 
working with DEA, State and local law enforcement, etcetera. 
We're also trying to do things to raise awareness. We did a 
video with DEA called ``Chasing the Dragon,'' which has been 
shown in schools around the country.
    But this is a multi-disciplinary problem.
    Senator Manchin. My time is short. If I can just ask this 
question, maybe. Whoever wants to answer this one. Based on 
what we know and the way we distribute money for foreign aid to 
different countries, knowing that a lot of the countries we 
distribute to is basically allowing, permitting, this type of 
scourge coming to our country as far as in the form of drugs, 
have you all thought and considered and make recommendations 
that we hold them hostage, if you will, or liable, basically, 
to the money they're receiving from the United States with the 
best of intentions? But that best of intentions is their fight 
against drugs coming to our country, when we know it's coming, 
from whether it be a China, Afghanistan, or Iraq, wherever it 
may be coming from, Mexico and all the South American 
countries?
    We should hold that. I've never seen--we're going to lose a 
whole generation in West Virginia. I have 10,000 jobs they 
can't fill. The United States has 3 million jobs we can't fill. 
And most of it is around drugs.
    So this is what we're asking for. This has got to be all 
hands on deck. I don't know if anybody wants to--do you have 
that as a high priority? Does anyone believe we should withhold 
foreign aid to countries that basically we know have illicit 
drugs coming to our country?
    Director Pompeo. Senator, I'll answer this. I think the 
United States should use every tool, whether that's foreign aid 
or other tools----
    Senator Manchin. Money talks.
    Director Pompeo [continuing]. To get these--that's exactly 
right--to get these nations that this is coming from to put it 
as a priority for their country. Some don't have the capacity 
to fix it. That is, it's a problem that's bigger than their 
nation. But we ought to--we should be unafraid to use the 
leverage that comes with our generosity from the American 
taxpayer to ensure that these countries are doing everything 
they can to prevent drugs from coming from their country to 
ours.
    Senator Manchin. Thank you. I appreciate that.
    Director Coats. As you do know, we do provide efforts 
within countries to help them eradicate. It hasn't been totally 
successful, but that is one way in which we use some of that 
aid if it's directly contributed to the eradication of drugs.
    Senator Manchin. Thank you.
    Chairman Burr. Senator Cotton.
    Senator Cotton. Thank you, gentlemen, for your appearance, 
and thanks to all the men and women who you represent and for 
the work they do for our country.
    Mr. Wray, are you aware of a gentleman by the name of Oleg 
Deripaska?
    Director Wray. I've heard the name.
    Senator Cotton. Is it fair to call him a Putin-linked 
Russian oligarch?
    Director Wray. Well, I'll leave that characterization to 
others, and certainly not in this setting.
    Senator Cotton. Chuck Grassley, the Chairman of the 
Judiciary Committee, last week sent a letter to a London-based 
lawyer who represents Mr. Deripaska and asked if Christopher 
Steele was employed, either directly or indirectly, by Oleg 
Deripaska at the time he was writing the so-called ``Steele 
dossier.'' Do you know if Christopher Steele worked for Oleg 
Deripaska?
    Director Wray. That's not something I can answer.
    Senator Cotton. Could we discuss it in the classified 
setting?
    Director Wray. There might be more we could say there.
    Senator Cotton. Thank you. And maybe we'll hear back from 
the lawyer in London as well to give us a straight answer.
    Jim Comey testified before this Committee in an open 
setting last summer and he referred to the Steele dossier as 
``salacious and unverified.'' Does that remain the FBI's 
position?
    Director Wray. I think maybe there's more we can talk about 
this afternoon on that.
    Senator Cotton. Okay, thank you.
    I'd like to turn my attention to the threat posed by China 
and specifically Chinese telecom companies. Senator Rubio spoke 
earlier, and I agree with what he said, about the threat of a 
rising China, and also the threat of Confucius Centers. There's 
also the threat the telecom companies, specifically Huawei and 
ZTE, but also Unicom and Telecom, pose to our country. That's 
why I've introduced legislation with Senator Cornyn and Senator 
Rubio to say the U.S. Government can't use Huawei or ZTE and 
that the U.S. Government can't use companies that use them. I'm 
glad that some companies, like Verizon and AT&T, among others, 
have taken this threat seriously.
    Could you explain what the risk is that we face from ZTE 
and Huawei being used in the United States, especially here in 
this public setting, the risks that companies, State 
governments, local governments might face if they use Huawei or 
ZTE products and services?
    Director Wray. I think probably the simplest way to put it 
in this setting would be that we're deeply concerned about the 
risks of allowing any company or entity that is beholden to 
foreign governments that don't share our values to gain 
positions of power inside our telecommunications networks that 
provides the capacity to exert pressure or control over our 
telecommunications infrastructure. It provides the capacity to 
maliciously modify or steal information, and it provides the 
capacity to conduct undetected espionage.
    So at a 100,000-foot level, at least in this setting, those 
are the kinds of things that worry us. I will say, like you, 
Senator, we've been gratified I think to date by the response 
of the large U.S. telecommunications providers trying to raise 
awareness on this issue. But I also recognize that the 
competitive pressures are building. So it's something that I 
think we have to be very vigilant about and continue, as you 
are doing, to raise awareness about.
    Senator Cotton. Admiral Rogers, would you care to add 
anything about the threat posed by Huawei?
    Admiral Rogers. I would agree with Director Wray's 
characterization here. This is a challenge I think that's only 
going to increase, not lessen, over time for us.
    Senator Cotton. So you would suggest to mayors, county 
judges, university presidents, and State legislatures, to look 
warily if Huawei or ZTE comes bearing gifts to them?
    Admiral Rogers. I would say you need to look long and hard 
at companies like this.
    Senator Cotton. All the witnesses, I'd like to address this 
question to you. Will you please raise your hand if you would 
use products or services from Huawei or ZTE?
    [No response.]
    None of you would. You obviously lead intelligence 
services, so that's something of a biased question.
    Raise your hand if you would recommend that private 
American citizens use Huawei or ZTE products or services?
    [No response.]
    None of you again are raising your hand. Thank you for 
that.
    Finally, I'd like to turn to a question, Director Pompeo, 
that's been in the news in the last few hours. There are 
reports that over 200 Russian mercenaries were killed in 
eastern Syria. Can you confirm or deny those reports?
    Director Pompeo. Senator Cotton, I'll leave to the 
Department of Defense to talk about what transpired there. I 
can say this. From an intelligence perspective, we have seen in 
multiple instances foreign forces using mercenaries in battles 
that will begin to approach the United States.
    Senator Cotton. General Ashley, since you represent the 
Department of Defense, would you like to confirm or deny?
    General Ashley. If we could take that to a closed session, 
Senator, I think we can lay out a rather interesting fabric of 
what is Syria and what transpired over the last few days.
    Senator Cotton. We can address that in the afternoon.
    Director Pompeo, to come back, as a general matter can I 
ask, is massing and maneuvering forces against a location where 
U.S. personnel are present in Syria a good way to get yourself 
killed?
    Director Pompeo. I think I'll defer that to the Department 
of Defense as well.
    Senator Cotton. General Ashley, would you like to answer 
that question?
    General Ashley. Sir, that does make you more susceptible. I 
would leave that also to the operational commander. But you are 
at greater risk when you start to mass in that situation.
    Senator Cotton. Not a good idea if you want to have a long 
and fruitful life.
    Thank you.
    Chairman Burr. Senator Harris.
    Senator Harris. Thank you.
    I want to echo the comments of my colleagues in thanking 
the men and women who serve in your agencies. I am concerned 
that the political attacks against the men and women of your 
agencies may have had an effect on your ability to recruit, 
retain, and also the morale of your agencies. So I would like 
to emphasize the point that we all I think share in making, 
which is we thank the men and women of your agencies for their 
selfless work. They do it on behalf of the American people, 
without any expectation of award or reward, and we cannot thank 
them enough for keeping us safe.
    Director Wray, Chairman Nunes's memo included sensitive 
FISA information regarding a person who worked on the 
President's campaign. According to the White House statement, 
the President was the one who authorized the memo's 
declassification. Do you believe there is an actual or at least 
the appearance of a conflict of interest when the President is 
put in charge of declassifying information that could 
complicate an ongoing investigation into his own campaign?
    Director Wray. Well, Senator, we've been very clear what 
our view was about the disclosure and accuracy of the memo in 
question. But I do think it's the President's role as 
Commander-in-Chief under the rule that was invoked to object or 
not to the declassification. So I think that is the President's 
responsibility.
    Senator Harris. Regardless of whether there is an 
appearance or actual conflict of interest?
    Director Wray. Well, I leave it to others to characterize 
whether there's an appearance or actual conflict of interest. 
But I think the President was fulfilling his responsibility in 
that situation.
    Senator Harris. If the President asked you tomorrow to hand 
over to him additional sensitive FBI information on the 
investigations into his campaign, would you give it to him?
    Director Wray. I'm not going to discuss the investigation 
in question with the President, much less provide information 
from that investigation to him.
    Senator Harris. And if he wanted--if he received that 
information and wanted to declassify it, would he have the 
ability to do that, from your perspective?
    Director Wray. Information from the----
    Senator Harris. However he received it, perhaps from 
members of the United States Congress.
    Director Wray. I think legally he would have that ability.
    Senator Harris. Do you believe the President should recuse 
himself from reviewing and declassifying sensitive FBI material 
related to this investigation?
    Director Wray. I think recusal questions are something I 
would encourage the President to talk to the White House 
counsel about.
    Senator Harris. Has the FBI done any kind of legal analysis 
on these questions?
    Director Wray. Well, happily, I'm no longer in the business 
of doing legal analysis. I now get to be a client and blame 
lawyers for things, instead of being the lawyer who gets 
blamed. So we have not done a legal analysis.
    Senator Harris. Have you blamed any lawyers for their 
analysis of this issue?
    Director Wray. What's that?
    Senator Harris. Have you blamed any lawyers for their 
analysis of this issue?
    Director Wray. I have not yet, no.
    Senator Harris. Okay.
    Is the FBI getting the cooperation it needs from social 
media companies to counter foreign adversaries' influence on 
our elections?
    Director Wray. I think the cooperation has been improving. 
I think we're continuing to work with the social media 
companies to try to see how we can raise their awareness, so 
that they can share information with us and vice versa. So I 
think things are moving in the right direction, but I think 
there's a lot of progress to be made.
    Senator Harris. What more do you need from social media 
companies to improve the partnership that you'd like to have 
with them to counter these attacks?
    Director Wray. Well, I think we always like to have more 
information shared more quickly from their end. But I think 
from their perspective it's a dialogue. They're looking to get 
information from us about what it is we see, so that they can 
give responsive information. So I think we're working through 
those issues.
    Senator Harris. Do you believe that the social media 
companies have enough employees that have the appropriate 
security clearance to make these partnerships real?
    Director Wray. That's not an issue I've evaluated, but I'm 
happy to take a look at it.
    Senator Harris. Please do, and follow up with the 
Committee.
    Director Coats, one of the things that makes guarding 
against foreign intelligence threats on social media so complex 
is that the threat originates overseas and so that would be 
within the jurisdiction of the CIA and the NSA, and then it 
comes to our shores and then it passes on to the FBI and also 
the social media companies themselves.
    I'm not aware of any written IC strategy on how we would 
confront the threat to social media. Does such a strategy exist 
in writing?
    Director Coats. I would have to get back with you on that. 
I'd be happy to look into it. From my perspective right now, a 
written strategy, specific strategy, is not in place, but I 
want to check on that.
    Senator Harris. Please do follow up.
    Also, last year Congress passed a bipartisan Russia 
sanctions bill. However, the Administration has not imposed 
those sanctions. From an intelligence perspective, what is your 
assessment of how Russia interprets the Administration's 
inaction?
    Director Coats. I don't have information relative to what 
the Russian thinking is in terms of that particular specific 
reaction. There are other sanctions, as you know, that are 
being imposed on Russian oligarchs and others through the 
United Nations and through other things that have been done in 
reference to the JCPoA. But specifically on your question, I 
don't have an answer for that.
    Director Pompeo. Senator Harris.
    Senator Harris. Yes?
    Director Pompeo. May I comment? I think we ought to look at 
that in a broader context. That is, how the Russians view all 
of the actions of this Administration, not just a particular 
set of sanctions or the absence thereof. So as we've watched 
the Russians respond to this Administration's decision to 
provide defensive weapons in Ukraine, to push back against 
Russian efforts in Syria, sanctions placed on Venezuela were 
directly in conflict with Russian interests, the list of places 
that the Russians are feeling the pain from this 
Administration's actions are long.
    Senator Harris. But, Director Pompeo, I'm sure you would 
agree that in order to understand the full scope of effect it 
is also important that we analyze each discrete component, 
including what is the interpretation of this Administration's 
failure to enact the sanctions as has been passed and directed 
by the United States Congress in a bipartisan manner. Have you 
done that assessment?
    Director Pompeo. Senator, in closed session I'll tell you 
what we know and don't know about that discrete issue.
    Senator Harris. Right.
    Director Pompeo. Yes, and I agree with you it is important 
to look at each one in its own place. But I think what we most 
often see in terms of Russian response, it's to the cumulative 
activities in response to Russian activities. That is how the 
United States responds to those, in a cumulative way.
    Senator Harris. Thank you. I look forward to our 
conversation. Thank you.
    Director Pompeo. Yes, ma'am.
    Chairman Burr. Senator Cornyn.
    Senator Cornyn. Director Coats, you alluded to the 
activities of transnational criminal organizations, and I'm 
thinking particularly as regards our neighbors down south of 
our border. Recently I heard somebody refer to the cartels, 
these transnational criminal organizations, as ``commodity 
agnostic.'' In other words, they'll traffic in people, they'll 
traffic in drugs and other contraband, all in pursuit of money.
    Director Coats. Whatever brings in the most dollars.
    Senator Cornyn. Senator Manchin I know and others have 
alluded to their concern about--and certainly we all share the 
concern about the deaths and overdoses caused by drugs in 
America, much of which comes across our southern borders 
through our ports of entry. This week we're going to be 
considering border security measures as part of a larger 
package that the President has proposed while addressing the 
so-called ``DACA recipients.''
    But, do you believe that modernizing our ports of entry and 
providing enhanced technology and other means to surveil, 
follow and identify illegal drugs coming across our ports of 
entry would be a good thing for us to do?
    Director Coats. I do. I do think that a layered approach is 
necessary to--it's clear that just one specific defense put in 
place is not going to solve the problem. It needs to be a 
layered interest of not only physical facilities, but also 
Border Patrol, also how those who arrive and perhaps dissipate 
in waiting for their court appearance, tracking them--a whole 
range of things that I think are going to be needed to stop 
that flow from coming in.
    Senator Cornyn. I know it's been alluded to, but just to 
emphasize my concern with the demand side. Maybe we've given 
up--I hope not--in addressing the demand side, which of course 
provides the money and the incentive for these cartels to 
operate, and it's something I think deserves full attention and 
focus of the United States Government. I've heard General Kelly 
in his previous job at DHS talk about that, and I hope we will 
return to that focus as part of this layered approach, the 
demand side, because it's something I think that is maybe the 
hardest thing to deal with, but perhaps might have the greatest 
impact.
    Director Coats. The supply depends on the demand and the 
demand drives the supply and provides the capital, with which 
to take extraordinary methods that bypass our defenses in order 
to get those drugs into the United States.
    On the demand side, this is a whole of the American people 
process. It's PTA's. We growing up got these videos of driving 
in driver's training and the horrendous look at crashes and so 
forth and so on. We need to let every student know what the 
consequences of these drugs are to their lives and to their 
future. We need to get parents involved, parent-teacher 
associations involved, so whether they pick up their values 
from church or from the neighborhood or whatever.
    This is a national crisis and we all of us here represent 
or are from states which are staggering through the process 
here of watching young people and others die from drugs that 
are more potent than they've ever been.
    Senator Cornyn. Let me just lay down a couple of markers 
here in my comments, but then I want to end on CFIUS, the 
Committee on Foreign Investment in the United States.
    I will join Senator Rubio and Senator King, Senator 
Lankford, and others concerned about the failure of the U.S. 
Government again to have an all-of-government strategy to deal 
with the cyber threat. I have no doubt in my mind that we have 
superior capabilities, but they're stovepiped. I don't think 
we, the policymakers, are doing a good enough job, and I think 
it's incumbent upon us to try to provide some policy guidance 
so that you and others in the intelligence community and the 
national security apparatus can address this threat in the way 
that it needs to be addressed.
    Our adversaries don't suffer from a lack of an all-of-
government policy. They are all over that. China, I agree with 
Senator Rubio about their strategy, and some of you have 
responded to that.
    But one of the strategies that China and other countries 
have adopted is to avoid some of the review measures in the 
Committee on Foreign Investment in the United States when it 
comes to direct investment, buying those dual-use technologies, 
startup companies and the like, and then using that to gain 
strategic advantage against the United States.
    I wonder if maybe, Director Wray, could you address that; 
and then anybody else in the time permitted, I'd be glad to 
hear what you have to say about that.
    Director Wray. Senator, I think you're exactly right that 
CFIUS reform is particularly relevant to the China threat, 
although not exclusively China threat. And there is a degree to 
which CFIUS as it currently stands is susceptible too much to 
the kind of ``round pegs only go in round holes'' kind of 
thing. It's not hard to come up with other-shaped pegs to get 
around that process, the obvious example being joint ventures, 
but there are other ways as well. So that's one of the 
significant problems.
    Another problem is the amount of time that's built into the 
process to do a thorough review, which is too short. Another 
problem is the inability to share information, since other 
countries, our allies, are going through the same thing, to be 
able to share information, so when they go through their own 
versions of the CFIUS process they have the benefit of what was 
attempted in our country, and vice versa.
    I think in general we need to take a more strategic 
perspective on China's efforts to use acquisitions and other 
types of business ventures, as opposed to just a tactical, 
looking only within the four corners of one particular 
transaction.
    General Ashley. If I could, the Director laid out really 
kind of the bigger issue at the strategic level and for us at 
DIA, we're kind of taking on the tactical. So we're the ones 
that are right about ready to penetrate the line. So if you 
look at supply chain risk management, we actually run the 
Threat Analysis Center that is hooked into CFIUS. So we bring 
the services together and look at supply chain risk management 
for CI issues associated with whomever may get a contract and 
ties back to China and other nations.
    But you allude to the fact that every case for CFIUS comes 
back and we take a look at it. We get about three days with it. 
We could use more time to make a more thorough scrub.
    Senator Cornyn. Thank you.
    Chairman Burr. Thank you.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman. I apologize for 
being late. We had a simultaneous hearing in the Armed Services 
Committee on SOCOM.
    All morning, gentlemen, we've heard the story of Russia 
influencing our campaigns and indeed in the current campaign 
for the midterms. So let me begin with Mr. Wray and say: Has 
the President directed you and your agency to take specific 
actions to confront and blunt Russian influence activities that 
are ongoing?
    Director Wray. We're taking a lot of specific efforts to 
blunt----
    Senator Reed. Directed by the President?
    Director Wray. Not specifically directed by the President.
    Senator Reed. Director Pompeo, have you received a specific 
presidential direction to take steps to disrupt these 
activities?
    Director Pompeo. I'm not sure how specific. The President's 
made very clear we have an obligation from our perspective, 
from a foreign intelligence perspective, to do everything we 
can to make sure that there's a deep and thorough understanding 
of every threat, including threats from Russia.
    Senator Reed. But has he singled out the Russian threat, 
which appears to be critical to this election coming up? I know 
there are threats from many different vectors, but have you 
received a specific threat, i.e., it's very important to him to 
get this done correctly?
    Director Wray. Yes, I think the President's been very clear 
that he has asked our agency to cooperate with each of the 
investigations that's ongoing and do everything we can to 
ensure that we thoroughly understand this potential threat.
    Senator Reed. Director Coats, have you received a specific 
directive to take specific steps to disrupt, understand first 
and then disrupt, Russian activities directed at our elections 
on 2018?
    Director Coats. I would echo what Director Pompeo just 
said. We work together on this throughout. The agency has full 
understanding that we are to provide whatever intelligence is 
relevant and make sure that that is passed on to our 
policymakers, including the President.
    Senator Reed. Passing on relevant intelligence is not 
actively disrupting the operations of an opponent. Do you 
agree?
    Director Coats. No. We pass it on and they make the 
decision as to how to implement it.
    Senator Reed. As the Director of Intelligence, are you 
aware of or leading an inter-agency, an inter-governmental 
working group that is tasked with countering Russian 
activities? Not merely reporting on it, but tasked with 
countering those activities? Are you aware of any type of 
inter-agency group, any inter-governmental groups since State 
elections are critical or State elected officials are critical?
    Director Coats. Well, we essentially are relying on the 
investigations that are under way, both with this Committee and 
the HPSCI Committee, as well as the Special Counsel.
    Senator Reed. So you're not taking any specific steps, 
based on the intelligence, to disrupt Russian activities that 
are occurring at this moment?
    Director Coats. We take all kinds of steps to disrupt 
Russian activities in terms of what they're trying to do. I 
think I'll turn it over to Director Pompeo to----
    Senator Reed. Let me finish with the rest of the gentlemen. 
Are you finished, Mr. Coats, Director Coats?
    Director Coats. Yes.
    Senator Reed. Thank you. Thank you.
    Director Pompeo. Senator Reed, we have a significant 
effort. I'm happy to talk to you about it in closed session. 
The CIA--and it is not just our effort. It is a certainly all-
of-IC effort--there may be others participating as well--to do 
our best to push back against this threat. It's not just the 
Russian threat. It's the Iranians and Chinese. It's a big, 
broad effort.
    Senator Reed. I understand, Mr. Director, we have mutual 
threats, but one threat that has been central. And you've 
testified to this publicly. The last election there was Russian 
influence. This election, they seem to be more prepared. 
They've learned their lessons. The simple question I pose is: 
Has the President directed the intelligence community in a 
coordinated effort, not merely to report, but to actively stop 
this activity? The answer seems to be that I'm hearing is the 
reporting's going on, as we're reporting about every threat 
coming in to the United States.
    Let me get back quickly. Do any of the other panelists have 
anything to add on this point?
    Admiral Rogers. For us, I can't say that I've been 
explicitly directed to, quote, ``blunt'' or actively stop. On 
the other hand, it's very clear, generate knowledge and 
insight, help us understand this so we can generate better 
policy. That clearly--that direction has been very explicit, in 
fairness.
    Senator Reed. But I think again--you may agree or 
disagree--collecting intelligence, then acting on it in a 
coordinated fashion, are two different things.
    Admiral Rogers. Yes, sir. I'd also argue, what's our role 
as intelligence professionals in all of this?
    Senator Reed. Let me just end. I've got very few moments 
remaining. We've talked a lot about China, CFIUS, and their 
involvement in trying to buy companies in the United States. 
What I think has to be pointed out, too, is they are 
undertaking significant national investment in artificial 
intelligence and quantum computing that is dwarfing anything 
that the Administration is proposing or suggesting.
    If artificial intelligence has even half of the benefits 
that its promoters claim, it is going to be extraordinarily 
disruptive. Quantum computing has the capacity to undercut 
cryptology as we know it, and the experts can correct me if I'm 
wrong. Some of the mechanisms that quantum computing can 
generate could, based on infinite measurements of gravity, 
detect devices underground and under the water, which for 
anybody who's a submariner, you've got to be wondering.
    So where is our national Manhattan program for AI and 
quantum computing that will match the Chinese? Director Coats, 
you seem to be anxious to answer that. I'll let you do that.
    Director Coats. I think there are some things that we'll 
talk about in a classified setting here. We're treading a very 
narrow line here relative to discussing this in an open 
meeting.
    Senator Reed. I don't want to tread that line, but we do 
have to recognize that, again, the Chinese activity to 
appropriate our intellectual property is obvious. They are 
generating their own intellectual property at a rate that could 
be disruptive and we are not matching them. Again, this 
Manhattan analogy might be a little bit out of date, but when 
we saw the potential effects of a scientific development back 
in the forties, we spared no expense so that we would get it 
first before our opponents.
    The Chinese seem to be making that type of commitment very 
publicly: hundreds of millions, billions of dollars. They've 
said publicly; they have a plan and they're working the plan.
    Director Coats. And we provide that information to the 
extent that we can collect that information. But just like the 
Manhattan Project, we don't openly share what steps that we're 
taking to address it.
    Senator Reed. I respect that.
    Thank you, Mr. Chairman.
    Thank you, sir.
    Chairman Burr. Thank you, Senator Reed, and I do hope 
you'll come back to the closed session if you can this 
afternoon. I think that you'll get some fidelity in that closed 
session.
    I want to turn to--we're about to wrap up. Everybody can 
look up. There are no more questions, so you don't have to lose 
eye contact with us hoping you're not the guy that they're 
going to ask to answer.
    [Laughter.]
    You can tell who the newbies are. They've stayed focused on 
the Members the entire time; and the ones that have been here 
before have been like this (indicating.).
    I want to turn to the Vice Chairman.
    Vice Chairman Warner. Thank you, Mr. Chairman.
    We look forward to seeing you all this afternoon. Robert, 
we hope to get some overhead questions to you this afternoon.
    Echoing what we've all said, appreciate your service. But I 
think we're hearing again a lot of commonality as we think 
about cyber, misinformation, and disinformation. It really is 
asymmetrical.
    One of the things that has struck me is that if you do a 
rough calculation and add up the costs to Russia in terms of 
their intervention in America, elections, the Dutch elections 
where they hand-counted all the ballots, the French elections 
where Facebook acknowledged taking down 30,00 sites. You add 
that all together, it's less than the cost of one new F-35 
airplane. Pretty good bang for the buck.
    I remember a year or so ago at Langley looking at some of 
our fighter technology, stealth technology, and the colonel 
showing me around bemoaning the fact that the Chinese had 
gotten this again on the cheap by stealing a lot of the 
intellectual property that underlies that technology.
    Echoing what Senator Reed said--and again, I think this is 
where we all need to put our heads together--we just made a 
massive additional investment in DOD. We're at roughly ten 
times the size on our spend versus our near-peer adversaries 
like China and Russia. I do feel, not from a criticism 
standpoint, but more from just where we ought to be thinking 
about going forward, that we may be buying the best twentieth 
century military that money can buy, when we see our near-peer 
adversaries making these massive investments in areas like AI, 
machine learning, quantum computing. I think we all need to 
think through this from a general strategic standpoint.
    I worry that we've got certain low-hanging fruit as we 
think about Chinese tech companies and how to get CFIUS right. 
One of the things some of us discussed with you in the past is, 
if you look simply at IoT-connected devices, we're going to 
double the number from about 10 billion to 20 billion in the 
next three to five years. Yet we have no even de minimis 
security requirements for the Federal Government purchasing of 
IoT devices.
    I would--I know I've talked with General Ashley on this. I 
don't believe there is, even across the IC and DOD, 
prerequisite that before we buy some of these connected 
refrigerators or sensors or common consumer goods, that there 
be that patchability or no embedded passcodes.
    So I think again there's a lot of work we can do, but we 
don't have the luxury of short time.
    Senator Blunt raised some of the questions around election 
security. I know the Chairman's going to make this comment in 
his closing remarks. I think this Committee has done some very 
good bipartisan work in a series of areas that arose out of the 
Russia investigation. It's our hope that on election security 
we can come forward with a set of recommendations very quickly, 
because we have primaries coming up as early as March. My hope 
is that there will be able to be bipartisan legislation to try 
to start addressing this issue.
    So thank you, gentlemen. I look forward to our session this 
afternoon. With that, I'll turn it over to the Chairman.
    Chairman Burr. Thank you, Vice Chairman.
    Admiral Rogers, I can't remember whether it was you or 
somebody else at the table said when we had a closed session 
about investment: It's not how much we spend; it's how we 
deploy the capital that we've devoted to a particular thing. I 
think as a general statement we get much better at the way we 
deploy capital, and I think we deploy it with a measurement 
tool today on return that's totally different than it was 10 
and 20 and 30 years ago. I think that's important.
    This Committee has a global mandate, a mandate that I think 
has been reflected, I think, in the statements and the 
questions of the Members of this Committee today. It's my hope 
that the American people got a sense of the breadth of topics 
this Committee deals with on a daily basis, and so do you.
    What was unsaid today? What was unsaid is that the Special 
Counsel is not the only investigation that's going on in 
Washington. The scope of the Special Counsel's investigation 
was clearly stated by the DAG when he hired Bob Mueller. I 
think the media has spent some portion of every day trying to 
portray that the scope of that investigation has changed.
    The truth is I don't know. I'm not sure that anybody in 
this room knows. But here's what I do know: I know the Senate 
Intel investigation continues. We're hopefully wrapping up some 
important areas that we have focused on. The Vice Chairman just 
alluded to the fact that it is our hope and our belief that 
before the primaries begin we intend to have an overview of our 
findings that will be public. We intend to have an open hearing 
on election security. And it's the Committee's intent to make 
recommendations that will enhance the likelihood that the 
security of our election process is in place.
    In addition to that, our review of the ICA, the Intel 
Community Assessment which was done in December of 2016, we 
have reviewed in great detail, and we hope to report on what we 
found, to support the findings where it's appropriate, and to 
be critical if in fact we saw areas that we found came up 
short. We intend to make that public. To begin with, none of 
these would be without a declassification process, but we will 
have a public version that we air as quickly as we can.
    The third piece is the review of when we learned of 
Russia's intrusions into our system, what we did or what we 
didn't do, and again with the intent of sharing as much of that 
with the American public as we can find through open hearings 
and through an overview.
    Lastly, we will continue to work towards conclusions 
related to any cooperation or collusion by any individual, 
campaign, or company with efforts to influence the outcome of 
elections or to create societal chaos in the United States.
    I want to thank each of you at the table for an 
unprecedented access to intelligence products, legal documents, 
and other materials that were needed for us to do our job.
    We have a very talented group of individuals who have 
conducted this investigation. The remarks of every individual 
who has come in before us has commented on their 
professionalism and the fact that at the end of eight hours 
they couldn't tell who was a Democrat and who was a Republican. 
So the effort to be bipartisan has not just been public; it is 
private as well, and permeates all the way down through our 
staff.
    They couldn't do this in a timely fashion without the 
access that each of you have provided us and your agencies. Let 
me just reiterate again: We understand that this is an 
unprecedented access to this information.
    I promised you when we started a year ago that the 
sensitive nature of that material would in fact be protected. 
The Vice Chairman and I have done everything in our power to do 
that. We think we have maintained that promise. There have been 
times where information has found its way out, some of recent, 
where it didn't come from us, but certainly have portrayed it 
did. And that's okay, because you know and we know the security 
measures we've got in place to protect the sensitivity of that 
material.
    We have also protected the sensitivity of the individuals 
that have been interviewed, voluntarily. The individuals who 
have come in, what they've shared with us; to date we have not 
released any interview notes, because that's not for public 
consumption. We ask people to come in and share with us things 
that help us understand what happened. It's our responsibility 
to take that information and to put it into some form that 
furthers the American people's understanding and assurance that 
we have thoroughly reviewed this.
    We will continue the promise that we made to each of you 
until the conclusion of this investigation and on. There are no 
expectations that everything you have shared with us is now a 
precedent that you have to continue. I hope it's not. I have 
said publicly, and criticized for it, that our Committee was 
created to operate in secrecy, I believe that's where we 
perform our best work, and we're given the opportunity and the 
need for the American people to have a better understanding, 
that we should provide that for them in as controlled an 
atmosphere as we do.
    Today is an example of that, and we can now move from a 
public setting to a more private and closed setting to continue 
to get some clarity on some of the issues that our Members 
need.
    I want you to understand the take-away here. The take-away 
is this Committee has and will continue to focus on answering 
the question that was given to this Committee from an 
investigation standpoint: What Russia did to influence the 2016 
elections? There are efforts to expand our efforts. They are 
not internal. We realize we have to answer for the American 
people: What did Russia do to mess with the 2016 elections?
    Like many of you, on some of the questions when we've asked 
that were specific about it in public and in private, we find 
it's multi-jurisdictional. We've got to begin to sort that out 
for us, us the American people.
    So I thank you for your willingness to be here today. I 
thank you for the performance of your employees, who have 
worked tirelessly with very little thanks, and of late with a 
lot of criticism, to keep this country safe, and I might say to 
keep other countries safe, because we are very generous when we 
know that bad things are going to happen.
    The Committee is appreciative of the relationship that we 
have. We will continue to work to earn your trust, because 
that's the only way we can perform the type of oversight that 
we believe the Committee is mandated to do. And for the 
cooperation that each one of you provides us, we're grateful 
for that.
    With this, this hearing's adjourned until a closed session 
at 2:30.
    [Whereupon, at 12:10 p.m., the hearing was adjourned.]

                         Supplemental Material
                         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                         
                         
                         

  

                                  <all>
</pre></body></html>
